K /: ■(
Qj)

i-..r

!
Ju

w1'

(j*

No.
Supreme Court, U s"
FILED

JUL 2 2 2021
°fQCEOFTHECLERK

IN THE r,
I
SUPREME COURT OF THE UNITED STATES
I

1
ETITIONER
(Your Name)
vs.
ESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

lirJfrvH™-

Q&?

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

(Your Name)

(Address)

(City, State, Zip Code)

(Phone Number)

©
\
. ;iV

.

'txSfQcZ\A/»=.

J

^bi-

■>-£'^s^rsz»-'^ J'^SL —«^_ NWf=^s=5'''/ C*~ ft &Z5£xX2t>*&s!£*
VVfeuS^ "V^>
vvSi^

\\Se=^

b^'
.^.gsto-a i A^eCv

rui-C^K/w-^i^^r

VVvtts

l—^x^0vsrst^?^D^A2i-_
<3gCtti^ '&*- -X» \\§>Vc_,
\|^(^r^TO^ ^

-X_ Jkta^X

/aAS-4^-^
^ Via— CJX'Ga^T'xVvS^ XO( ^SdLui^Ou

t^oufJV-^5^
XXA'/=c^

Ka^V V^'^fcX-^^KxA.V^
Ovynw i,MH$______ _______

i^O *0^.

\

N\n(c^A^

uWV^s^^

&L

C^l£jro\*- c£>

^(W^lc^ \\NS<__
kj-'i v

^L^tAY-yVvS^ <^!l!fer>^^\ '\ST\'(V-v-fc^^

Xt^vcs^YxSV^

VwJlJ^P^ v<S«v;^£>^>

b*_$£>Vv£^> JMSar/ ^>e^=C^Vv^^^C^JVv^^

iz^

'V"VS^£t&v*o.
C^ u£xv^ac\ <''\Xui“^v'^ ^€*'vW*«v1La*>^' ^ot^

^jCo^2x^>^) 4r^v Vor^eJ~Vc^ 5^Jl9tr\

V^t_ i^j^NDvy>i'Z^_^\of \W-_

'X^LVn 0vvA^

AVje_

rx>

4^

--- ^iX>Q£;

Cfc' v^ *Vf^4r-^

fV.<^<3ETv^'®-x^ssx'^ ^

^

M^^^-TZ5- aJ^eeTTS Aw^ ^U^-A^<S^a^

1-05^1
py

(5^S^=Ol^> ^f^A_
lW^L

x0f^>«si»^t^s3S'Vk> *v3 v c3 <>

L

\pcSr" Csr1^»

j<Swo CtYwcsi- u>aa^g, K/^t>e5^T«6 S'Jbt
~Irtti Lc^ bo>^.
)^f'\'3ra^SL
83b;ww^'?sQa?r^
N\JU~T(=>-w (Lc^v^/ t-txusck
rt^JS§
V$ji(
prefix-cr

^

WS53-£C5^^^^

<3(\ac6-C&Ao
3nr.

t.

S^X7^)u^5=Kx£^^Li^y^ t?&&sxn

oti>£ ^Ry^-Sv^zsrr^
w

iv^vAA (^Oar-^ ^Ao<k_

<fXJP=rv^'^d

L_C^i3K/Sis£S-k_, K/v^^itD,

^MAS

^O.^PiSC^}
h'\cu^V>~

ftp v'.W £jr^oJ?t_.£jij->f5t-

Q'^^'OeocaGSt^
a

Ii-Nu Lctir^W ^ODO LLC^ntr \\&»^t5t~
Va?J^ K
CX3^4^

CLTrO^L

<5tW-^MJ't>t><3<H76

f£2£»^
H

5*.

16
v

ft

\
/

V

*?

r

U&._
>V-<

1

v~v

CSv

\^> !a-J^ t

\rh>^V^rt> -----S<$Lj-

i* lD— <0-Lx,

1/

'■Vo-ii

^^StxOJOL-N^s

c

Pv)^MJ5_

-

Kk<_-vSer^U\n-

loU J^.V^-T, A Km^Yh^S, cs^S
)..Arrw
l J , „---- \ C

Va

V> /vx^r^N

\ Yvrv___

♦^a**—
—v * Yx

7

\

i

V**JL

\v%i~

Lodzr~

Vw^r

_^
-—^o___
wS*=K.>CLa
UTiUJ'Ea^j,

Cf^ Vg^=^ \v£c=^cs\
<\ZxQ$uzl zsz& -A^^'^lA£vL«**a~,^3::3^5^^. &

SUHi

C3r VvvC~-* v^VN\koo^^<y>^ \ t? Ot^x
X r&-*^ Nogyv-N,.^

^'^<3

— v3 “ A.^ &)Q>3\

«

\a(6V^^^ \l^viO^ ^ b.7^, \wo«V Or^C^ *W.

Mflu
\%
.r^vij^r^^7^.^/tH°r
°*C
dLt\^tj v3vtSPO£<-\o^~N»WA£, b^t^e<> W«C VxX^
U>Vto ,V
Lcxr-t C^r WiK<yw tw^( KnT6^\S^W. ™

i V-«_

^^*>v«Y Os>^-A

\rv«b\Ws 0^
V^c, V^<\W^-(^2^2j5Ui <>^<, ^U^TTgMSsa-^ C££k£*?,
€>«v>J=e^C<_

C^t-\<^v^ii) ISxAA-i?^

-j

(b-^ir-^X/yc^tjt^

^vi^>er'\±> \ WSxAi_ X^«a^>

v )V-c. ^ vOa^

&Y

Q^^VSeoL '.fe KxbV OrvX'l
UyK* "i^vGbtttA ^rOVfC.V'-VWx W 'v~_ V^SCu? ’SwXSV:^ K^'TC^ (
Njyvt^. H^-CfiJvT^vfiii \ ^
C\i*b6
Igk^rbfST ^vkrT\^>
^\v^V:^rt^Ab)^
Vcsj^3^) \k.v
V>3r\se~>l \A3^NV\cvv2e^>N/y6^S XdvynssOc^^Vo^
Vv!v^ u^’^UvCxS^f^Sa^
W\Xe^ Vx.s<>t>«. bcA*-

kj^.

K ^v^tfv^to^C, Ov>t33»-v
— &" c9v\ (w<?3)i.5t^3V.cw«-' Us*&a

^Jf-^Vw-tio Lo^jt^ ^J0Wv*v''^«^ Mj- Wife.

r

-^■otA^v5«c-/ f-5^I>^'e4'-zfc£D

N V\j

K\CS^_ ^o-^e^w ^2?v\-^ ^>^vtM=.'M W\ VXa^d

_______

\\st_

^ W-^_

~*~^^_]L1c.C>-.A<L_ ^^u-T\o^va£a2« *
__

r^\^^=r=^^0»->CS$.'\s/a^^O NV^Gav^ V^' ^X'l^v“t“' llco^V^5 &^=fcvvV.\owv

^

Vwt/b). Lo^-g- ^o^y.^%)

- S- A.>

»*-*• V-^i<iW J^v~ ^toj'cAId.^

LJter^v VmvZS^ tjw^X Qwo/^goo (& <^X^\J^xjS^

^.r^wL

or- c^K^-\fe. ^swc^S^oc-.^ ^gpu^)

\wL Lx*-t ‘SteA*£'Vi3&„-'K- C-bL^VvefeTO SKPPty 'V*, V-Pa^ V W£*A~
b^wiS)
C^>cvsy>^aA''.
ifv^Wi\s.t5<£*j_
igu^ <x>. a<a
\v^ 1 bXub l)W^4t
^^vUrrTKv^
\V^aT~TC^

^ Ho'WvvrvS^A \£> U^Wo^^bVvPoA W LO'vfe^^ OJ^
7NtlWAv^x. r^v~TTC^
^-2^
(^Ly^\ovv^. \<b Cj^ KaO
V&.^srJx*^1^ U.;6S.v3p,\ X6 __

4&>&62L36'b6()dQb.
'XL^VW (Wr^CLVTbci’t^ ^vlVj^Wfe Vo.cs^No^e^ Lotr-e^lV
K??V\-cA

0\^ Ux.v^£) tlA^
^ SLy^cT V&z. \

• 'W
l-Csc&t&

t^>w^MiL<^

h^lrxW'

jW.^Vl-&-<Sl\ &Q$V- >w.
fe^vc6.6\V:i^ nA A )
(Wk k^

Lo^U

p

w. v^SoU^
,
^
NtiSsW xi&ss^

^•e^£vOt^ \AfVs Nv^v^xX^^J^Quc- Uia<b KA&\*
\jC^vse^_ \jOs<^S'^Vwj^v^LcA;^^^^^^nrv',i-' vvv

ChV^Ki:
LVs^^ Wy^s>. L-O^^—

<b-£\m°i&). --"Vfet^> &&£Z2U^ <A Vw^V^xSl^^ ^uutg-xl -e^tr^e^
£wA. <5W>A W^

Wv^-

Wxt^.lA-^

KkxA.

*

W<v^^fV^vit'~^^ \V-«-------------- —-------

e^v<^ .0^ .n

1

f^ve^~~TC>
__

\ ks_ v^-f^est^., ^e^, 0>&yO'e/c/

v'V^ jVaVtSr^ "v"-:: w
>-A^w .C^v^aL V&..^>).Ad Li^

b>£^> 6fr» AA <?)£jfrk(>vv/7*b .WMfrfe-^vS) VA£^ajiK_ V6» KjV. HoUs U»-6. IqV. LdQ
HU a/S.
3A W6/*L ^» <^- 4Mtf\<V^\ U»^>.y6.ffi*uc<*\8fi D.6.
^6-nILA6£l
^cm^ 169 S>-W£VU^ A^s
^X^TvCe- ^b^A^-c, Wf Vj45^- 1)£^C>^na^\\\(^t^x^4>/^\^A^\V^\.
M^ck_\\. ^<A vvrs\
V\£A. (X/v_ CSPv^£>l^ N» va

A> S-CX^ Wi*C^y2- AnXtr Wit>t>.^3>^*—

3~ AVimX
\Wv V\Wtev/~u^- V^y-Ssa^D ‘ I^Atyc UXto ^stotuk-AjV-K^-Cir^S?
v&.'S^cn^Ufe^ 66 -A A &i&,8ik. (^:,ab. V\ch^,- (vy-prA &> Qp^r^s

W«lfc

fo"v^exs^. <\vA (^■Vs&W Vfe£^T^?J>lAl.

Vci-6/b. t^At- Nav'wvaty1']- 3^ <^-^\clC(^jl\fe^>T-tfo'??i

‘ts^IAWW W^SL K*A lliS^=^3^^

^vxr^^A^Bf^\oe£ii^oCV(ftV3^ Lawy-Aa^A^31^!^ p Y^-i

^sfca^Ea.ae' \1<»S>o ^

O

K^.v6^o \oe^<^r^a5rA'

ttXvCM^ r^> Cv^~SZ^\^^A—

gSSP^A

<SoWvX'^D \Wt*

—-VaSi

(^4^s^
Y^Sri> ^VnU=&.

C«fo. v^sX
0**\—'nVtx_JS^5s^X_^^:=^ Us

A/b=^ -Vy Es^Tybor'

WvVcr^ \k^_
Vv^\od3 cu^Qt3t4.W» \5lx6^1
0^V"q6 OO^U\^iTboVWc^£) VMvTv^fe.

^ y^C/y^^*^
Vx-^la ^ £> ^ TU
i
'6

' ».vtw ^ssvt o^vsxa^ (\fi7^b xAft-s^r^Pi^
\\Wt>- tStoX^jU^ <a0- aA SMI ^fe,)fflV- ^=> ^
‘Xtet^L"lJW\=\X*l>/^ Ur^^v-c
f?

^'“MT7. w M\i>vWTCrt_«WvifaSfc^^ y^^S-fceA
t> C*t*^.
Q^V> r \*\A^ y~v6 ^6^o^>6ci

uyio
-zl^Y-j

r5^>»

—

------------

W^TvS^3£^ "C£3c£>U^ ^Uco^Tjb^

y Cv.^vV V

hi

S

cSWfe,

\~cS

\\(]A^=^^\gr€Jl£lo^^V3^^3 U3^^p VS^rl^i-cJ^ '“TO Vx_6er^3:'vfi'C^
U^W WsTbt)—v3-o^ V
><V

/

\

k3^6b t^v-Wb^I \^ C^s^ro-,

(^v3^~^

Md.
\y^

^rc^v

WtT A^-- tAffT' ti>VUI~Sfc*KA
LAsh
^SaZnO-te^ofi.,
■^X^Ak^ Vioi~^uvuX- Loitr^

„y
W WyVt.
^-tA^vSCXCi- <jtwMg^ 'CdT^vAN-W, AAfirxK>Cybt5^^'V/^a
KaO

Ajtx—

* Q>-»£^*

__,---- U&fa. Ly

^yH- fl- A/

2

05 V^v^ ^aPRi^AaKAxZTwvT

fesas?-\e
Vm;
^ V\j
«/-

k f V- /

(v^wu>r^^

r

”'2fH=fcr' J^^\o^^T:6<2J^35u?NHW
<* v>
rvb-^.'taiG' ljv
0 LL tf
\>

/f
>

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/21 12 of 30 PagelD #: 85

Watts v. State, 733 So.2d 214 (1999)

reliability of population frequency statistics to mixed
DNA samples without also considering the odds of these
two particular individuals’ DNA being present on the
same item. I* Crawford, 716 So.2d at 1045. Further, as
the testimony in Hepner, as well as in Dr. Koehler’s
articles, suggests, the introduction of statistical evidence
can be meaningless without any evidence of the testing
laboratory’s error rate. Given that the population
statistics, or lack thereof, like evidence of laboratory error
rates, go to the credibility of the DNA matching evidence,
it cannot be said that the circuit court improperly refused
to strike the evidence of the DNA samples found in his
undershorts.
III. WHETHER THE TRIAL COURT ERRED IN
ADMITTING
PROBABILITY
STATISTICS
PERTAINING TO THE DNA ON THE
DEFENDANT’S JACKET
141 H 27. After asserting that the circuit court erred in
admitting DNA evidence from his undershorts without
any accompanying statistical data about the mixed sample
thereon, Watts now asserts that it was error to admit
probability statistics about the DNA evidence on his
jacket. He contends that the State failed to show that there
are current techniques used to calculate DNA population
frequency statistics which are generally accepted by the
scientific community and are neither arbitrary nor
unreliable. He further asserts that the State failed to show
that Dr. Tracey’s strict application of the product rule to
calculate population frequency statistics was a generally
accepted technique in the scientific community. Rather,
he urges this Court to require use of the more
conservative ceiling principle.
28. The significance of a DNA match found between a
suspect or a victim and genetic material recovered from
the crime scene or other evidence is assessed through a
population frequency analysis. That is, what is the
likelihood that someone other than the suspect (or the
victim) would possess DNA matching that found in the
samples taken at the crime scene or from other evidence?
As discussed in Issue II, we have found that population
frequency statistics are admissible. ^ Hull, 687 So.2d at
728. See also P Crawford, 716 So.2d at 1045—46.
^ 29. The Pennsylvania court, in © Commonwealth v.
Blasioli, 552 Pa. 149, 713 A.2d 1117 (1998), presents the
most cogent explanation of the product rule, which “states
that the probability of a genetic profile occurring
randomly is the product of the probabilities of each
individual allele’s occurrence in the general population.”

©M. at 1124.
WESTLAW

*225 The statistical assessment performed after a
match has been declared is called population frequency
analysis. The object is to determine the overall
likelihood that someone other than the suspect would
possess DNA matching that in the sample obtained
from the crime scene. The first step is to determine, for
each matching allele, the likelihood that such an allele
would appear in a randomly selected individual. This
determination is made through the application of
theoretical models based upon population genetics.
Such models are generated by creation of a computer
database containing DNA profiles obtained from the
general population. The frequency of an allele obtained
from a sample can be determined by calculating the
probability that a matching allele would appear in a
DNA sample obtained from an individual who was
randomly selected from the database.
To ameliorate theoretical problems associated with
population substructures, discussed below, the
Pennsylvania State Police laboratory database
categorizes DNA samples according to three racial
groups, and uses a process known as “fixed binning.”
The probability of random matching is also reduced by
choosing highly variable segments of the DNA, with
dozens of individual alleles, so that individual allele
frequency will be very low. Additional variations occur
in the matching of the maternal and paternal alleles
located at each locus, further reducing the probability
of a random match.
Once the probability of random occurrence is
calculated for each individual allele, the individual
probabilities may be combined to determine an overall
probability of random matching across the genetic
profile. In order to make this calculation, scientists
have employed the product rule. The product rule states
that the probability of two events occurring together is
equal to the probability that the first event will occur
multiplied by the probability that the second event will
occur. Coin tossing is commonly used as an
illustration—the probability of a coin flip resulting in
“heads” on successive tries is equal to the probability
of the first toss yielding heads, fifty percent, times the
probability of heads on the second toss, fifty percent,
equaling twenty-five percent.
As applied in DNA typing, the product rule states that
the probability of a genetic profile occurring randomly
is the product of the probabilities of each individual
allele’s occurrence in the general population. Such
application can produce odds of up to one in 739 billion
of a random profile match.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT B

12

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/2113 of 30 PagelD #: 86
Watts v. State, 733 So.2d 214 (1999)

Id. at 1122-24 (internal citations and footnotes omitted).
f 30. Watts bases his assault on the product rule on the
National Research Council’s 1992 Report which, while
discussed by the expert witnesses when examined by his
attorney, was never entered into evidence.
See
P Underwood v. State, 708 So.2d 18, 26 (Miss. 1998)(this
Court decides cases on facts in the record, not assertions
in the briefs). As Watts asserts, the 1992 NRC Report
recommended the use of the more conservative ceiling
principle and the interim ceiling principle. However, he
fails to point out that “the NRC’s 1992 report did not
constitute an outright rejection of the product rule.
Instead, the NRC merely recommended that until data
could be assembled from which to assess the impact of
any significant population substructuring, the ceiling
principle could be applied to impose an appropriate
degree of conservatism.”
Blasioli, 713 A.2d at 1125.
Since the publication of that report, three subsequent
events have all but ended the controversy over use of the
product rule. First, in 1993, the FBI conducted a survey of
VNTR frequency data and determined that population
frequency calculations based on the product rule were
“reliable, valid and meaningful, without forensically
significant consequences *226 resulting from population
substructure as had been postulated by some scientists.”
©Blasioli, 713 A.2d at 1125 (citing Laboratory Division,
Federal Bureau of Investigation, United States
Department of Justice, 1-A VNTR Population Data: A
Worldwide Study 2 (Feb.1993));
Commonwealth v.
Rosier, 425 Mass. 807, 685 N.E.2d 739 (Mass. 1997);
State v. Loftus, 573 N.W.2d 167, 174-75 (S.D.1997);
f9 State v. Copeland, 130 Wash.2d 244, 922 P.2d 1304
(Wash.1996). Based on the FBI study, Dr. Eric Lander,
the leading opponent in the scientific community to use of
the product rule declared that the “DNA fingerprinting
wars are over” in his article, E. Lander & B. Budlowe,
DNA Fingerprinting Dispute Laid to Rest, 371 NATURE
735, 735 (Oct. 27, 1994). ©Blasioli, 713 A.2d at 1125.
Finally, in its 1996 Report, The Evaluation of Forensic
DNA Evidence, the NRC noted that “ ‘[t]he ceiling
principles were intended for VNTRs with many alleles,
no one of which has a very high frequency [and tjhey are
not applicable to PCR-based systems.’ ” I1* Rosier, 685
N.E.2d at 745{quoting 1996 NRC Report at 158). The
1996 Report concluded that both the ceiling and the
interim ceiling principles were unnecessary and “ ‘[i]n
general, the calculation of a profile frequency should be
made with the product rule,’ ” both for VNTR and
PCR-based systems. Id. (quoting 1996 NRC Report at 5).

considered the admissibility of statistical evidence based
on the product rule have determined that the challenges to
its use have been sufficiently resolved. ©Blasioli, 552
Pa. 149, 713 A.2d 1117; }* Loftus, 573 N.W.2d at 174;
Rosier, 685 N.E.2d at 745;
State v. Copeland, 130
Wash.2d 244, 922 P.2d 1304 (1996); }9 Armstead v.
State, 342 Md. 38, 673 A.2d 221 (Ct.App.1996); People
v. Edgett, 220 Mich.App. 686, 560 N.W.2d 360 (1996);
P People v. Miller, 173 111.2d 167, 219 IU.Dec. 43, 670
N.E.2d 721 (1996); State v. Morel, 676 A.2d 1347
(R.I.1996); P Lindsey v. People, 892 P.2d 281, 292
(Colo. 1995);
State v. Dinkins, 319 S.C. 415, 462
S.E.2d 59 (1995); State v. Weeks, 270 Mont. 63, 891 P.2d
477 (1995); P Taylor v. State, 889 P.2d 319
(Okla.Crim.App.1995); P State v. Anderson, 118 N.M.
284, 881 P.2d 29 (1994); State v. Futrell, 112 N.C.App.
651, 436 S.E.2d 884 (1993). Given that the product rule
has been accepted in the scientific community and found
to be a reliable method of calculating population
frequency data, we find that the trial court did not abuse
its discretion by admitting the evidence.
IV. WHETHER THE TRIAL COURT ERRED IN
ALLOWING THE STATE OF MISSISSIPPI TO
MISSTATE THE MEANING OF ITS DNA
PROBABILITY STATISTICS
151 K 32. Watts next asserts that in closing arguments, the
prosecution mis-characterized the testimony of statistical
expert, Dr. Martin Tracey, and otherwise misled the jury
as to the significance of the DNA evidence. No objections
were made at trial to the complained of comments and
thus, the issue is procedurally barred. F * Jackson v. State,
684 So.2d 1213, 1226 (Miss. 1996); }* Davis v. State, 660
So.2d 1228, 1245-46 (Miss.1995); M Chase v. State, 645
So.2d 829, 854 (Miss. 1994).
V. WHETHER THE TRIAL COURT ERRED IN
PERMITTING TWO DISCOVERY VIOLATIONS
PERTAINING TO THE PROSECUTION’S DNA
PCR EVIDENCE
U 33. Watts further alleges that the State committed two
discovery violations in not providing the defense with the
requested copies of GenTest’s proficiency test results and
in introducing testimony by Dr. Tracey which employed
product frequency calculations without notice to the
defense when he previously had issued a report on the
evidence using the ceiling principle, as discussed in Issue
III, supra.

t 31. Based on these developments, courts which have
WE5TLAW

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT B

13

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/2114 of 30 PagelD #: 87

Watts v. State, 733 So.2d 214 (1999)

161 Tj 34. On June 28, 1995, the circuit court entered an
order directing GenTest Labs to turn over to the defense
any and *227 all data relating to any proficiency tests in
which the lab had participated, specifically relating to
Ampliphite PM testing, DQ Alpha testing, D1S80 testing
and STR Triplex testing. Watts apparently did not pursue
the matter despite P Rule 9.04(1) of the Uniform Circuit
and County Court Rules, which provides that when a
party has failed to comply with an applicable discovery
rule or an order of the court entered pursuant to a
discovery rule, the court may then order the party to
provide the requested material or grant a continuance or
other appropriate relief. Further, since Watts’ entire
defense is predicated upon his sole witness’ attack upon
the credibility of the State’s DNA evidence, the absence
of proficiency test results and/or GenTest’s unwillingness
to provide the requested information would appear to
enure to his benefit. Indeed, rather than raising an
objection at trial or seeking a continuance to procure the
evidence sought, Watts’ expert witness used the absence
of proficiency data to his benefit to discredit the reliability
of GenTest’s testing procedures as well as Dr. Sinha’s
analysis of the evidence. Watts also has used the
evidence, or absence thereof, to attempt to discredit the
admissibility of PCR testing. He cannot have it both
ways. While the better practice would have been for the
State and GenTest to have been forthcoming with the
proficiency test data, as recommended by the 1996 NRC
II Report,3 Watts was not prejudiced by its absence. This
evidence, or lack thereof, goes to the credibility of the
witnesses and the evidence they presented; if anything, it
served to weaken the State’s case.
[7] U 35. Watts also asserts that the prosecution failed to
advise him that Dr. Tracey would present statistical
evidence based on product rule frequency calculations
rather than the ceiling principle used in a report he
generated on August 16, 1995. He did not object at trial
pursuant to
URCCC 9.04(1), and to the contrary,
cross-examined Dr. Tracey extensively about the results
obtained by using the two different statistical approaches.
The issue is procedurally barred by Watts’ failure to
object at trial. ^ 1Veils v. State, 604 So.2d 271, 276
(Miss. 1992); Dodson v. State, 494 So.2d 575 (Miss. 1986).
As distinguished from 1® Harrison v. State, 635 So.2d
894 (Miss. 1994), upon which Watts relies, where the
circuit court erred in overruling the defendant’s objections
and in refusing to follow his request to comply with
former Uniform Criminal Rule of Circuit Court Practice
Rule 4.06 and
Box v. State, 437 So.2d 19, 22-26
(Miss. 1983), the matter was not put before the court and
thus,, the.circuit, court, cannot.be-held.in.error. J51c/ta.se,.
WESTLAW

645 So.2d at 846; T* Jones v. State, 606 So.2d 1051,
1058 (Miss. 1992).
VI. WHETHER THE TRIAL COURT ERRED IN
ALLOWING
THE
PROSECUTION
TO
COMMENT ON, AND INTRODUCE EVIDENCE
PERTAINING TO, DEFENDANT’S FAILURE TO
TEST THE DNA EVIDENCE IN THIS CASE
[8] T[ 36. Watts next contends that the circuit court
improperly allowed the prosecution to question his DNA
expert, Dr. Ronald Acton, about his failure to run tests on
the same evidence tested by GenTest. As the State notes,
at the motion in limine hearing, the defense had
questioned Dr. Sinha as to whether any material remained
available for re-testing. By letter dated January 17, 1996,
Ms. Sones notified Dr. Acton that the District Attorney’s
Office had been advised that the material was available
for re-analysis and invited him to contact her to make
arrangements *228 if he wanted to run his own tests. On
cross-examination, after Dr. Acton testified that his
laboratory had been doing forensic PCR testing since
October, 1995, Ms. Sones questioned him about whether
he had received her letter offering to let him retest the
evidence and that he apparently did not seek to have the
genetic material retested.
37. No objections were raised at trial to the line of
questioning, and thus the issue is procedurally barred.
!■ Lester v. State, 692 So.2d 755, 773 (Miss.1997);
^ Carr v. State, 655 So.2d 824, 853 (Miss. 1995). On
re-direct examination, further, the defense did not pursue
the issue. Citing no authority, Watts now asserts that the
admission of the testimony was improper because the
burden was on the State to demonstrate the reliability and
general acceptance of the evidence it introduced and that
he was not required to offer any evidence or have it
tested. This Court is under no obligation to entertain
assignments oferror unsupported by authority. 1^ Brown
v. State, 690 So.2d 276, 297 (Miss. 1996); McClain v.
State, 625 So.2d 774, 781 (Miss. 1993); Baine v. State,
604 So.2d 249, 255 (Miss. 1992). Procedural bar
notwithstanding, there is no merit to the issue. It was Dr.
Acton who pointed out that consistent with the NRC
guidelines, his was not an unbiased laboratory for
re-testing the evidence, but that there were some very
good laboratories “that could have been utilized to this
and should have been. ” (emphasis added). The only
comment which can be construed as a comment on the
defense’s “failure” to have the evidence retested came
from the defense’s own witness, and not from the State.
-VII.-WHETHERITHE-TRIAL GOURT-ER«EB3N=
PERMITTING
THE
PROSECUTION
TO

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT B

14

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/21 15 of 30 PagelD #: 88

Watts v. State, 733 So.2d 214 (1999)

INTRODUCE
HIGHLY
PREJUDICIAL
MATTERS,
INCLUDING
THE
VICTIM’S
FATHER’S SPECULATION THAT DEFENDANT
COMMITTED THE OFFENSE AND ALLEGED
PRIOR BAD ACTS BY THE DEFENDANT
K 38. Watts next complains that the circuit court erred in
allowing the introduction of highly prejudicial evidence at
trial. In addition to briefly reasserting his contention that
the DNA evidence presented at trial was unreliable and
prejudicial, he argues that certain testimony given with
regard to the victim’s father’s belief that Watts should be
questioned, as well as testimony given by another witness,
Catherine Bullock, was highly prejudicial.
[91 H 39. Watts asserts that he was prejudiced by Officer
Carroll Bryant’s testimony that Anthony Lumpkin had
mentioned to him that Watts should be questioned in the
investigation, by Lumpkin’s testimony that he, in part,
suggested that Watts be questioned because he had stared
at the child when she danced “like he was daydreaming or
something,” and that Lumpkin’s credibility was bolstered
by testimony of Coroner Norma Williamson that she had
known him for fifteen years because they both worked in
the health profession. No objections were raised to any of
this testimony at trial and thus the issue is procedurally
barred from review by this Court.

Lester, 692 So.2d at

773;. M Carr, 655 So.2d at 853. Further, except to
suggest that the complained of testimony was
“speculative,” Watts makes reference only to several
cases where witnesses testified about matters outside their
personal knowledge, which are not at all relevant to the
complained of testimony. There is no meaningful
argument or authority upon which to base any intelligent
discussion of the assignment of error and thus it need not
be considered by this Court.
Brown, 690 So.2d at 297;
McClain, 625 So.2d at 781; Baine, 604 So.2d at 255.
40. Watts also challenges the testimony of Catherine
Bullock, Pauletta Baxter’s neighbor. Bullock testified that
around 12:00 or 12:30 on the night of the child’s
disappearance, Watts had been “bamming” *229 on
Baxter’s door,4 and then came to Bullock’s door looking
for “Shan.” Asked how he was acting, Bullock testified:

To be honest and tell the truth, in my years I have—I
used to get high off crack cocaine. Twenty-five years
old. And this particular night for some reason I didn’t
get high that night. Squirrel had come up and he bought
some drugs and he hung around for a while. Everyone
was sitting outside, drinking, popping fireworks. I
know I talked to Squirrel.
. ..
Watts now mis-characterizes Bullock’s testimony,
WESTLAW

asserting that she was improperly allowed “to testify
that she had previously sold drugs to Watts.” No
contemporaneous objection was raised at trial and thus,
the issue is procedurally barred.

Lester, 692 So.2d

at 773;.)» Carr, 655 So.2d at 853.
VIII. WHETHER THE JURY VERDICT
FINDING DEFENDANT GUILTY OF CAPITAL
AGAINST
THE
MURDER
WAS
OVERWHELMING
WEIGHT
OF
THE
EVIDENCE AND NO REASONABLE JUROR
COULD
FIND
DEFENDANT
GUILTY
BEYOND A REASONABLE DOUBT
U 41. Watts next attacks the sufficiency of the evidence,
charging that the jury’s verdict was against the weight of
the evidence and that no reasonable juror could have
found him guilty beyond a reasonable doubt. He contends
that the DNA PCR evidence, which he considers to be
highly suspect, is the State’s only evidence against him.
He further asserts that there is insufficient evidence to
show that he committed sexual battery upon Vanessa
Nicole Lumpkin with “lustful intent.”
[10] [11]

K 42. Any review by this Court of the sufficiency of
the evidence upon which the defendant was convicted is
made in deference to the verdict returned by the jury.
Kolbergv. State, 704 So.2d 1307, 1311 (Miss. 1997). This
Court therefore looks at all of the evidence in a light most
favorable to the verdict, giving the prosecution the benefit
of all favorable inferences that may be drawn therefrom.
^ Lester, 692 So.2d at 797;
McFee v. State, 511
So.2d 130, 133-34 (Miss.1987). The familiar standard is
applicable, too, in capital cases. ' Mackbee v. State, 575
So.2d 16, 36 (Miss. 1990). Furthermore, as explained in
Kolberg:

We have held in numerous cases
that the jury is the sole judge of the
credibility of the witnesses and the
weight to be attached to their
testimony. We have further said
that we will not set aside a guilty
verdict, absent other error, unless it
is clearly a result of prejudice, bias
or fraud, or is manifestly against
the weight of credible evidence.
Cromeans v. State, 261 So.2d 453
(Miss. 1972); Marr v. State, 248
Miss. 281, 159 So.2d 167 (1963);
and Freeman v. State, supra [228
Miss. 687,89 So.2d 716 (1956)-|—

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT B

15

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/2116 of 30 PagelD #: 89

Watts v. State, 733 So.2d 214 (1999)

I Id. at 1311 {quoting Maiben v. State, 405 So.2d 87, 88
(Miss. 1981)).
P21 1 43. Watts first calls into question the credibility of
the DNA evidence presented, briefly attempting to
explain away the presence of DNA matching that of the
Vanessa Lumpkin on his clothing. He weakly claims that
“the victim’s DNA on the jacket” is not strong evidence
of his guilt, arguing that the age of the bloodstain was
unknown and that both he and his former girlfriend,
Pauletta Baxter, from whom he had gotten the jacket,
knew the victim well. Watts was seen wearing the jacket
on the night that the child disappeared. Baxter testified
that she had never worn the jacket and had only seen
Watts wear it once. His cousin had never seen the jacket
before that night. No evidence was presented at trial that
the jacket was ever worn in the presence of Vanessa
Nicole Lumpkin prior to the night of her death.

*230 1 44. Watts attributes the presence of the mixed
DNA samples on the inside of his shorts to contamination,
“most probably when Sumrall was collecting it.” Sumrall
testified that Watts deposited his underwear directly into
the bag that Sumrall (who was wearing gloves at the time)
was holding. Again, no evidence was introduced at trial to
support Watts’ hypothesis.
1 45. Watts also suggests that there was insufficient
evidence to convince a reasonable juror that a sexual
battery had occurred because there was no evidence of
lustful intent. However, lustful intent is not an element of
sexual battery that needs to be proven. Rather,
I Miss.Code Ann. § 97—3—95( 1 )(c)(1994) requires only
a showing of sexual penetration with a child under the age
of fourteen. Vanessa Nicole Lumpkin was ten years old.
Dr. Ward testified that the child sustained severe bruising
in the perineal area and a tear in the vaginal wall. While
she was unable to determine whether the injuries were
caused by a penis or some other object, penetration
clearly occurred. Looking at the evidence of the nature
and extent of the injuries sustained by the victim in a light
most favorable to the verdict, there is more than sufficient
credible evidence to sustain the jury’s findings.
IX.
WHETHER
THE
TRIAL
COURT
COMMITTED
REVERSIBLE
ERROR
IN
PERMITTING THE PROSECUTION AND
DEFENSE COUNSEL TO WAIVE RACE AND
GENDER OBJECTIONS DURING VOIR DIRE
[13]

1 46. Watts’ first trial ended in a mistrial after a jury
could not be seated. At the second trial, after voir dire was
completed, the circuit court asked the parties how they
wished to proceed with regard to peremptory challenges
WESILAW

pursuant to ' Batson v. Kentucky, 476 U.S. 79, 106 S.Ct.
1712, 90 L.Ed.2d 69 (1986). The following exchange took
place:
THE COURT: Now, let’s see. On the jurors what is
going to be the defense and the State’s position as to
Batson ?
MR. BROADHEAD: Your Honor, at this time we
would waive Batson. Co-counsel and I, Mr. Sweatt,
have talked in detail about this between ourselves first
and then with Mr. Watts. And with the experience of
last time trying to pick a jury and not—the defense was
put in a spot in a couple of instances with jurors where
we wanted them off the jury, but were unable to state
race neutral or gender-neutral reasons. And because of
that experience we do intend to waive Batson at this
time.
THE COURT: What about the State?
MR. DOUGLASS: Well, we would invoke Batson if
the defense did. And since they did not want to, then
we will not invoke.
1 47. Watts now charges that the circuit court “willingly
and intentionally permitted the prosecution and defense to
engage in race-based and gender-based jury selection.” It
is clear from the record, however, that it was the defense’s
idea to “waive Batson ” to avoid having to come up with
gender- or race-neutral reasons for peremptory
challenges. The State agrees with Watts’ assertion that the
circuit court should not have allowed the parties to waive
Batson. However, it suggests that Watts “intentionally
waived Batson objections in order to discriminate” and
that but for Watts’ request to waive Batson, no waiver
would have occurred. Moreover, the State questions the
propriety of Watts now challenging an error that he,
himself, invited for his own benefit.
148. In ^ Mata v. Johnson, 99 F.3d 1261 (5th Cir.1996),

vacated in part on other grounds, 105 F.3d 209 (1997), the
Fifth Circuit addressed a similar agreement made to
impact jury selection and declared that despite the
fourteenth amendment violation that resulted, a new trial
was not warranted because of the defendant’s willing
participation in the agreement. Mata, who is Hispanic,
was convicted of killing a *231 black prison guard at the
Texas Department of Corrections facility where he was an
inmate. At trial in 1986, counsel for the defense and the
prosecution expressly agreed to exclude all eight black
members of the venire panel. ^ Mata, 99 F.3d at 1268.
The trial judge effectively approved the agreement by
allowing the parties to strike each black without stating

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT B

16

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/2117 of 30 PagelD #: 90

Watts v. State, 733 So.2d 214 (1999)

any reason or exercising any of their peremptory
challenges. Id.
K 49. The Fifth Circuit noted the various concerns raised
by the parties, who, as in the case sub judice, raised the
issues of public confidence in the jury system and
violation of jurors’ rights, but refused to adopt a per se
rule reversing a case whenever individuals have been
excluded from a jury because of race. Id. at 1270. Instead,
considering Mata’s willing participation in the
constitutional violation, the court denied his claim for a
new trial on that ground. Id. at 1270-71. Similarly, in the
case sub judice, we find that a new trial is not warranted
on the basis of the Batson issue since it was waived by the
defendant.
X. WHETHER THE TRIAL COURT ERRED IN
GIVING THE APPEARANCE OF BIAS IN
FAVOR
OF
THE
PROSECUTION,
PARTICULARLY
DURING
THE
DIRECT
EXAMINATION OF DR. EMILY WARD
[14]

K 50. Watts next asserts that the circuit court
improperly assisted the prosecution in the presentation of
its case, giving the impression of bias in its favor,
particularly during the direct examination of State
Medical Examiner, Dr. Emily Ward, who conducted the
autopsy on Vanessa Nicole Lumpkin. He relies
exclusively on IF* West v. State, 519 So.2d 418
(Miss.1988), where this Court warned judges to limit their
involvement in trial proceedings, stating:
In f* Thompson v. State, 468 So.2d 852, 854
(Miss. 1985), the Court said:
It is a matter of common knowledge that jurors ... are
very susceptible to the influence of the judge ...
jurors watch his conduct, and give attention to his
language, that they may, if possible, ascertain his
leaning to one side or the other, which, if known,
often largely influences their verdict. He cannot be
too careful and guarded in language and conduct in
the presence of the jury, to avoid prejudice to either
party.
See also Norman v. State, 385 So.2d 1298 (Miss.1980);
I? Stallworth v. State, 310 So.2d 900 (Miss. 1975);
!• Shore v. State, 287 So.2d 766 (Miss. 1974);
I* Green v. State, 97 Miss. 834, 53 So. 415 (1910).
We have recognized the danger that a trial judge
generates by indicating or showing his attention to
certain matters- in the trial which -may communicate to
the jury the impression that such evidence or testimony
WESTLAW

is important or unimportant, and the very position of a
judge during trial makes each comment unusually
susceptible of influencing a juror or the jury. Shelton v.
Puckett, 483 So.2d 354 (Miss.1986); P* Hannah v.
State, 336 So.2d 1317 (Miss. 1976); Thompson v. State,
supra; Stubbs v. State, 441 So.2d 1386 (Miss.1983);
IF* Fulgham v. State, 386 So.2d 1099 (Miss.1980);
Myers v. State, 99 Miss. 263, 54 So. 849 (1911).
West, 519 So.2d at 422-23. Thus, in West, where the
circuit court expressly coached the district attorney in a
stated effort to avoid reversible error and asked questions
of the witnesses where it felt the prosecution had not
elicited satisfactory answers, this Court found thirty
instances where the lower court judge had improperly
interjected himself, including the asking of questions
which served to strengthen the case against the defendant,
and reversed the case for a new trial. ^ Id. at 421.
T151. Watts did not raise any contemporaneous objections5
to the comments he *232 now assigns as error and thus,
the issue is procedurally barred. Walker v. State, 671
Foster v. State, 639
So.2d 581, 597 (Miss.1995);
So.2d 1263, 1270 (Miss.1994). Furthermore, no judicial
overreaching is present in the case sub judice. Our
review of the eight instances complained of persuades us
that the circuit court did not impermissibly “assist the
prosecution” as Watts argues, or in the manner found
improper in West. Moreover, we cannot help but notice
that the circuit court “assisted” the defense from time to
time, particularly during the direct examination of Dr.
Sudhir K. Sinha, Director of GenTest, Inc. Any
“assistance” provided by the circuit court to the attorneys
in presenting their cases was even-handed, to say the
least.

XI. WHETHER THE TRIAL COURT ERRED IN
OVERRULING DEFENDANT’S MOTION TO
SUPPRESS
[15]
H 52. On June 6, 1995, Watts filed a Motion to
Suppress evidence that he alleged was seized illegally
from him. He contended that the clothing he was wearing
at the time of his arrest on December 20, 1993 was seized
neither pursuant to a lawful warrant nor through normal
Sheriffs Office custodial procedures and asserted that
DNA evidence taken from those items should be
suppressed. Watts now asserts that his underwear and
clothing were the fruits of an unlawful seizure because the
police lacked probable cause to detain him. While
acknowledging that he executed two separate waivers of
his rights, Watts relies on a plurality opinion in
Florida v. Royer, 460 U.S.491, 501, 103 S.Ct. 1319,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT B

17

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/21 18 of 30 PagelD #: 91

Watts v. State, 733 So.2d 214 (1999)

75 L.Ed.2d 229 (1983), to support his contention that the
taint of any prior illegality such as an illegal search or
seizure generally is sufficient to invalidate consent.
However, there was no illegal search or seizure in the
case sub judice. Rather, the police had sufficient grounds
for questioning and detaining Watts and he had been
advised of his rights, consulted with an attorney and twice
given his consent before turning his clothing over to the
authorities. Further, in ^^^Shell v. State, 554 So.2d 887
(Miss.1989), rev’d on other grounds, ^*498 U.S. 1, 111
S.Ct. 313, 112 L.Ed.2d 1 (1990), this Court stated that
“[i]t is a long-standing rule in this, and other jurisdictions
that, pursuant to a lawful arrest, law enforcement officials
may seize personal effects and clothing from one who has
been arrested.” I* ©S/ze//, 554 So.2d at 896. See also
Brown v.
State,
690
So.2d 276, 285
(Miss.l996)(circuit court did not err in refusing to
suppress evidence of shoes and coat taken from plain
view at defendant’s house taken at the time of his arrest);
Upshaw v. State, 350 So.2d 1358 (Miss.l977)(seizure of
defendant’s clothing upon his arrival at jail not a violation
of his constitutional rights). There being no basis in the
evidence for Watts’ claim that he was unlawfully detained
or arrested or that the Sheriffs Department did not follow
its normal custody procedures in collecting his clothing,
we do not hold the circuit court in error for refusing to
suppress the items and any evidence taken therefrom.
XII. WHETHER THE PROSECUTOR IN THIS
CASE ENGAGED IN MISCONDUCT THAT
REQUIRES REVERSAL
[161

If 53. Watts next raises four instances of alleged
prosecutorial misconduct arising from comments made
during the closing arguments of both the guilt and
sentencing phases of his trial. He contends that the
cumulative effect of these comments warrants reversal of
his case. Watts made no objection to the comments at trial
and the issue of prosecutorial misconduct was not raised
in his motion for a new trial. Despite his assertion that
prosecutorial misconduct must be reviewed on appeal
despite counsel’s failure to object,6 *233 the assignment
of error is procedurally barred.

Jackson, 684 So.2d at

1226;
Chase, 645 So.2d at 854. As this Court
explained in Jackson, where it was alleged that the
prosecutor made improper comments during both opening
and closing arguments as well as while examining
witnesses, but no objections were raised at trial, “ ‘[t]he
defendant who fails to make a contemporaneous objection
must rely on plain error to raise the assignment on
appeal.’ ” 1*Id. at 1226 (quoting ^Foster v. State,
639 So.2d 1263, 1289 (Miss. 1994)). Moreover, the
contemporaneous objection rule remains applicable in
WESTLAW

capital murder cases.
Evans v. State, 1997 WL
562044, 725 So.2d 613 (Miss. 1997); Williams v. State,
684 So.2d 1179, 1203 (Miss. 1996).

XIII. WHETHER THE TRIAL COURT ERRED
IN ALLOWING NORMA WILLIAMSON, A
CORONER, TO TESTIFY TO MATTERS ABOUT
WHICH SHE HAD NO EXPERTISE
[17]
K 54. Watts next asserts that the circuit court erred in
allowing testimony by Marion County Coroner, Norma
Williamson, that marks on the victim’s neck and arms
appeared to be ligature marks, that the child appeared to
have been sexually abused because of the position of the
body and drainage coming from the vagina, that there was
no way to tell which came first the alleged strangulation
or the air embolism and that the sexual assault could have
come after the victim’s death. While Watts contends that
admission of the evidence violated a panoply of rules of
the Mississippi Rules of Evidence as well as the eighth
and fourteen amendments to the United States
Constitution and corresponding provisions of the
Mississippi Constitution, he asserts only that Williamson
testified about expert matters that “were clearly outside
any expertise she might have had” without any
meaningful argument or authority to support the
assignment of error. His argument, therefore, need not be
addressed by the Court. I* Brown, 690 So.2d at 297;
McClain, 625 So.2d at 781; Baine, 604 So.2d at 255.
If 55. Watts’ arguments further are procedurally barred by
his failure to raise any objection at trial to Williamson’s
testimony on direct examination, to which Watts cites,
about her opinion regarding the ligature marks and
evidence that the child had been sexually assaulted.
^ Lester, 692 So.2d at 773; 1* * Carr, 655 So.2d at 853.
Moreover, the testimony to which Watts refers regarding
what occurred first, strangulation or the air embolism, and
whether the child was sexually assaulted before or after
death, was in response to questions posed on
cross-examination by the defendant’s own attorney! The
only objection raised was by the State, which questioned
whether Williamson, a nurse, was qualified to answer
Watts’ attorney’s question as to whether the child might
already have been dead when she was sexually assaulted.
The circuit court sustained the State’s objection, allowing
Williamson, who was offered not as an expert but as fact
witness as to what she saw and did at the crime scene, to
testify only as to whether she was, indeed, qualified to
render an opinion. Despite her response that it would take
a medical doctor to make such an assessment, the defense
pursued the line of questioning without any further
objections ffomJheJState^ ___________________________

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT B

18

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/2119 of 30 PagelD #: 92

Watts v. State, 733 So.2d 214 (1999)

XIV. WHETHER THE TRIAL COURT ERRED IN
ADMITTING
NUMEROUS
GRUESOME
PHOTOGRAPHS
AND
A
NUMBER
OF
AUTOPSY PHOTOGRAPHS
[18]

56. Watts next asserts that the circuit court erred in
denying his motion to suppress inflammatory photographs
and admitting into evidence photographs of the victim,
including autopsy pictures, some of which were enlarged
from a standard 6” x 8” size to 20” x 30”. While he makes
specific allegations only about the inflammatoiy *234
nature of a picture of “the dead child lying crammed into
the fork of a tree root on a creek bank” and the
gruesomeness of the autopsy pictures, Watts appears to
argue that the trial court erred in overruling his objections
to photographs of the victim’s body, her wrist, her left
arm, her upper body, and autopsy pictures of her throat
and heart. The circuit court passed on Watts’ objections to
photographs of the child’s genital area until trial, where
the exhibit in question was allowed into evidence.
[is] po] pi) 57 “[T]he admissibility of photographs rests
within the sound discretion of the trial judge, whose
decision will be upheld absent abuse of that discretion ...
Yet, photographs which are gruesome or inflammatory
and lack an evidentiaiy purpose are always inadmissible
as evidence.” I* McFee v. State, 511 So.2d 130, 134
(Miss. 1987). In light of McFee and M.R.E. 403,7 a court,
when considering admissibility, must also consider (1)
whether the proof is absolute or in doubt as to identity of
the guilty party, and (2) whether the photographs are
necessary evidence or simply a ploy on the part of the
prosecutor to arouse the passion and prejudice of the jury.

M

McNeal v. State,
551
So.2d
151, 159
(Miss.l989)(finding that gruesome photographs of a
maggot-infested body were devoid of any evidentiary
purpose). See also
Williams v. State, 544 So.2d 782,
785 (Miss. 1987) ( “[Gjenerally the admissibility of
[photos] is within the sound discretion of the trial judge
and the admission is proper, so long as their introduction
serves some useful evidentiary purpose.... Abuse of
discretion is sometimes explained to be admission of
[photos] when a killing is not contradicted or denied or
the corpus delicti and the identity of the deceased have
been established.”).

K 58. While there is nothing pleasant about these pictures,
they are neither gruesome nor inflammatory, nor are they
overdramatized
by
their
enlargement;
Absent
enlargement, much of the relevant detail would not be
easily discernible. All of the photographs complained of
have significant evidentiary value, whose probative value
was increased-by enlargement. The circuit court did not
abuse his discretion in admitting any of the pictures.
WESTLAW

XV. WHETHER THE STATE OF MISSISSIPPI
VIOLATED
WATTS’
CONSTITUTIONAL
RIGHT TO A SPEEDY TRIAL
[22) H 59. Watts next contends that his constitutional and
statutory rights to a speedy trial were violated by the 959
days that elapsed between the time he was taken into
custody and the date of his trial. He does not seriously
argue the issue, presenting no facts or even the vaguest
attempt at a meaningful discussion; rather, he merely
directs the Court to see
Barker v. Wingo, 407 U.S.
514, 92 S.Ct. 2182, 33 L.Ed.2d 101 0972) and to vacate
his conviction and sentence, citing '
554 So.2d 313, 319 (Miss. 1989).

Trotter v. State,

K 60. The circuit court made a detailed on-the-record
finding regarding pre-trial delays in the case before
hearing peremptory challenges, explaining as follows:
THE COURT: Let the record show that James Earnest
Watts on June the 13th, 1994, waived arraignment and
waived speedy trial, waived 270 days. And a
psychiatric/psychological exam was ordered. And then
at the next term of court on August the 25th, 1994,
James Watts waived arraignment, waived speedy trial,
waived 270 days and requested a continuance and the
cause was continued till the October 1994 term. And on
October the 10th, the cause was continued at the
defendant’s request and preset for May the 22nd, 1995.
And at the same time he waived speedy trial rights and
waived 270 days. And then *235 on March the 17th,
1995, the defendant’s motion for change of venue was
granted and the venue was changed to Lincoln County.
And the trial was then moved to May the 21st,
1995—no. Excuse me. The trial of May the 21st, 1995,
was continued by agreement of both the State and the
defense. And at that time the case was preset for
August the 29th, 1995, in Lincoln County. And then on
August 29th, 1995, in Lincoln County the defendant
was arraigned, entered a plea of not guilty. At that time
after voir dire of the jury was completed the jury panel
was exhausted without a jury being able to be selected.
So at that time a mistrial was declared and the case was
continued till the February 1996 term of court in
Marion County with venue still being changed to
Lincoln County. Then on February 26th, 1996, the trial
was set again in Lincoln County for March the 4th,
1996. And at that time on motion by the defense
because of the methodology that the jury box was
loaded the venire was quashed and a mistrial was
declared. And the case was reset for trial on June the
24th, 1996, in Lincoln County. Then on March the 8th,
1996, at both parties’ request the case was reset for
June the 24th, 1996, for today being August the 5th,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT B

19

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/21 20 of 30 PagelD #: 93

Watts v. State, 733 So.2d 214 (1999)

1996. And that is the chronological events that have
transpired in this case to date. Okay.

from the total number of days before trial.” P* Herring,
*236 691 So.2d at 953; f B Vickery v. State, 535 So.2d

MS. SONES: Judge, just I’d like to add one thing about
that very last thing. The reason that trial date was
moved was because one of the experts for the defense
could not be there and we had no objection to moving
it.

1371, 1375 (Miss.1988). These three continuances clearly
were attributable to Watts.

THE COURT: Well, it was by agreement of both sides,
but whatever the reasons were ...
[23] [24]
H 61. The right to a speedy trial is guaranteed by
the sixth and fourteenth amendments to the United States
Constitution and art. 3, § 26 of the Mississippi
Constitution of 1890. “The constitutional right to a speedy
trial attaches at the time a person is effectively accused of
a crime.” Skaggs v. State, 676 So.2d 897, 900
(Miss. 1996); Noe v. State, 616 So.2d 298, 300
(Miss. 1993). An alleged violation of that right is subject
to scrutiny under the four-prong analysis set out by the
United States Supreme Court in ? 8 Barker v. Wingo, 407
U.S. 514, 92 S.Ct. 2182, 33 L.Ed.2d 101 (1972). The
Barker factors include 1) the length of the delay, 2) the
reason for delay, 3) the defendant’s assertion of his right
to a speedy trial and 4) prejudice to the defendant by the

delay.
Id. at 530, 92 S.Ct. 2182. No single factor is
dispositive. Skaggs, 676 So.2d at 900. Rather, this Court
looks at the totality of the circumstances in determining
whether a defendant’s rights have been violated.
1* Herring v. State, 691 So.2d 948, 955 (Miss. 1997).
[25]

I 62. When, as in the case sub judice, the length of
delay is presumptively prejudicial, u t the burden shifts to
the prosecutor to produce evidence justifying the delay
and to persuade the trier of fact of the legitimacy of the
reasons.’ ” P* Herring, 691 So.2d at 955-56 (quoting
I* State v. Ferguson, 576 So.2d 1252, 1254 (Miss. 1991)).
Watts was granted a total of four continuances. In each of
his first three motions for continuances, Watts expressly
waived speedy trial rights. His first continuance was
granted on June 13, 1994, in conjunction with a motion
for a psychiatric examination and evaluation. Watts’
second motion for a continuance was granted on October
18, 1994, setting his case for trial on May 22, 1995. At the
same time, the circuit court also granted his motions to
provide funds for expert witness assistance and a private
investigator. Watts’ third motion for a continuance was
granted on May 29, 1995, because of the unavailability of
his DNA statistical expert and the illness of State Medical
Examiner, Dr. Emily Ward. The trial was reset for August
29, 1995. “Continuances that are attributed to the
■defendanrstop_the_runn ing"0f the'dock amLare' deducted
WESTLAW

1261

U 63. A mistrial was declared in this case on August
29, 1995, when the venire panel was exhausted before a
jury was selected. Where a mistrial has been declared, the
Barker factors are utilized to determine whether the
discretionary time between trials violated the defendant’s
right to a speedy trial. P* Handley v. State, 574 So.2d
671, 674 (Miss.1990). Trial was reset for March 4, 1996,
a little over six months from the time of the first trial.
H 64. Watts’ fourth order granting a continuance, arising
from his ore tenus motion to quash the venire panel, was
entered on March 15, 1996. The circuit court found that
on February 9, 1996, it was discovered that a problem
existed with the venire pool because of improper
instructions given to the Lincoln County Circuit Clerk by
the Delta Computer Company. In its written order, the
circuit court expressly ruled that the delay in the
proceedings was not chargeable to either party for
purposes of the speedy trial rule. Trial, originally re-slated
for June 24, 1996, was reset at Watts’ request for August
5, 1996, because of a scheduling conflict with his DNA
expert.
1] 65. The delay prior to the first trial weighs heavily
against Watts, since it is attributable to the first three
continuances he sought. Because just a little over six
months elapsed between the first trial and the scheduled
date of the second trial, there is no presumption of
prejudice. As the trial court found, Watts’ fourth motion
for a continuance was not chargeable to him or the State
because the computer glitch that necessitated the delay
was not the fault of either party. While the delay between
the original June 24, 1996 trial date and the August 5,
1996 date for which it was rescheduled was made to
accommodate Watts’ expert witness, the record indicates
that both parties agreed to the change. It should not be
weighed against either.
7 66. While an accused is under no duty to bring himself
to trial, “ ‘he gains far more points under this prong of the
Barker test where he has demanded a speedy trial.’ ”

I*

Peny

v.

State,

637

So.2d

871,

875

(Miss. 1994)(quoting
Jaco v. State, 574 So.2d 625, 632
(Miss.1990)). There is no evidence in the record that
Watts made any attempt to expedite the proceedings
against him. To the contrary, he repeatedly waived his
right to a speedy trial in each of his first three motions for
continuances. We further note that Watts does not even

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT B

20

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/21 21 of 30 PagelD #: 94

Watts v. State, 733 So.2d 214 (1999)

assert that he was prejudiced in any way by the delay in
his trial; he contends only that his rights were violated.
The record does not indicate at what point the defendant
was incarcerated, and he makes no reference to any
particular anxiety or concern he suffered.
K 67. In ' Rhymes v. State, 638 So.2d 1270 (Miss.1994),
we found that “[wjhere, as here, the delay is neither
intentional nor egregiously protracted, and where there is
a complete absence of actual prejudice, the balance is
struck in favor of rejecting Rhymes’ speedy trial claim.”
Id. at 1275. See also Stogner v. State, 627 So.2d 815
(Miss.l993)(in absence of assertion of rights and any
showing of material prejudice, twenty-five month delay
did not violate right to speedy trial). Given that the delays
in Watts’ trial were not attributable to the State, but to the
defendant’s first three motions for continuances, that
Watts made no effort to assert his rights prior to trial and
that he has not alleged any prejudice, it cannot be said that
his constitutional right to a speedy trial was violated.

sentenced (a) to death; (b) to
imprisonment for life in the State
Penitentiary without parole; or (c)
to imprisonment for life in the State
Penitentiary with eligibility for
parole as provided in Section
47—7—3(l)(f).

Prior to trial, the parties’ attorneys discussed with the
circuit court the various sentencing alternatives available
under the revised statute. Finding that Watts had only two
sentencing options available to him, the circuit court
stated:
Well, my position would be when we instruct the jury
that since this occurred prior to the statute being
enacted that gives the jury the right to impose life
without parole that we will not put the [“jwithout
parole[”] in the possible verdict, because that was
enacted after this crime was committed.

XVI.
WHETHER
THE
TRIAL
COURT
IMPROPERLY INSTRUCTED THE JURY IN
NUMEROUS WAYS
|271
U 68. Watts next complains that the circuit court’s
instructions to the jury during both the guilt and
sentencing phases of his trial were constitutionally
deficient. The assignments of error are *237 barred
because of Watts’ failure to object to the complained of
instructions at trial or even raise them in his motion for a

new trial, f Berry v. State, 703 So.2d 269, 277
(Miss. 1997). Moreover, he fails to cite any authority or
provide any meaningful argument in support of most of
the objections he now raises to many of the instructions.
i Brown, 690 So.2d at 297; McClain, 625 So.2d at 781;
Baine, 604 So.2d at 255.
[28]

K 69. Procedural bar notwithstanding, Sentencing
Instruction No. 2 erroneously instructed the jury that it
had only two sentencing options: life in prison or the
death penalty. A third option, life imprisonment without
the possibility of parole, should have been presented
pursuant to l ‘ Miss.Code Ann. §§ 97-3-21 and
!
99-19-101. Watts, therefore, is entitled to
re-sentencing proceedings.
f 70. '

Miss.Code Ann. § 97-3-21(1994) provides that

Every person who shall be
convicted of capital murder shall be
WESTLAW

jf; jjs if.

The jury will just strictly be instructed in the penalty
phase, if we get to that, that they only have two options.
And that is life imprisonment in the custody of the
Mississippi Department of Corrections or the death
penalty. And parole will not be a factor in their
determination.
K 71. Like the circuit court, the State contends that the law
is not applicable to Watts because the crime for which he
was convicted was committed on December 19 or 20,
1993, before the law was enacted. However, Chapter 566,
section 5 of the Laws of Mississippi, 1994, refutes that
assertion, providing expressly that “[t]he provisions of
this act shall apply to any case in which pre-trial, trial or
resentencing proceedings take place after July 1, 1994.”
Watts’ trial was held on August 5, 1996, more than two
years after the effective date of the statute. That the
offense with which he was charged occurred before the
July 1, 1994 date is immaterial. The circuit court
committed reversible error in finding that Watts was not
eligible for presentation to the jury of the option of a
sentence of life in prison without parole, pursuant to the
§ 97-3-21. ^ West v. State, No.
terms of
94-DP-01200-SCT, Slip op. at 15 (Miss. August 11,
1998).
—

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT B

21

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/21 22 of 30 PagelD #: 95

Watts v. State, 733 So.2d 214 (1999)

If 72. Because the case must be reversed for re-sentencing
proceedings, we also note that Watts contends that circuit
court erred in refusing to grant his Sentencing Instruction
No. D-10, which provided as follows:

The Court instructs the jury that
there are two possible punishments
at this phase of the trial, death and
life imprisonment. Your sentence
of death means that you have
ordered that James Earnest Watts
be executed by lethal injection;
Your sentence of life imprisonment
means that you have sentenced Mr.
Watts to spend eighty-five (85%)
percent of his natural life in prison.

the body of Vanessa Nicole Lumpkin before her death,
or that a lingering or torturous death was suffered by
Vanessa Nicole Lumpkin at the hands of James Earnest
Watts A/K/A “Squirrel,” then you may find this
aggravating circumstance.
The language used in the second paragraph of the
instruction, which describes an especially heinous,
atrocious or cruel murder as one which is “accompanied
by such additional acts as to set the crime apart from the
norm of murders—the conscienceless or pitiless crime
which is unnecessarily torturous to the victim,” has been
found to provide a proper limit on the language
condemned in 1®Shell v. Mississippi, 498 U.S. 1, 111
S.Ct. 313, 112 L.Ed.2d 1 (1990). I® Q Clemons v.
Mississippi, 494 U.S. 738, 110 S.Ct. 1441, 108 L.Ed.2d
725 (1990). This Court, too, has found the language of the
instruction about which Watts complains to be
constitutional. 1® Holland v. State, 705 So.2d 307, 356
(Miss. 1997); 1* Evans v. State, 1997 WL 562044, 725

The instruction is an incorrect statement of the law. It
therefore was properly refused. !® Chase, 645 So.2d at
861. It improperly states that there were two only options
for sentencing Watts. Moreover, it incorrectly articulates
the possibility of *238 parole. See I® Puckett v. Abels,
684 So.2d 671, 678 (Miss.l996)(finding that Senate Bill
2175, as applied to the possibility of parole of offenders
who were sentenced on or after July 1, 1995 but
committed crimes before July 1, 1995, was an improper
ex post facto law). Accordingly, the circuit court correctly
refused to grant the instruction.
[29]

If 73. We further note that Sentencing Instruction No 5,
despite Watts’ contention to the contrary, passes
constitutional muster. Sentencing Instruction No. 5 reads
as follows:
The court instructs the jury that in considering whether
the capital offense was especially heinous, atrocious or
cruel; heinous means extremely wicked or shockingly
evil; atrocious means outrageously wicked and vile;
and cruel means designed to inflict a high degree of
pain with indifference to, or even enjoyment of, the
suffering of others.
An especially heinous, atrocious or cruel capital
offense is one accompanied by such additional acts as
to set the crime apart from the norm of murders—the
conscienceless or pitiless crime which is unnecessarily
torturous to the victim. If you find from the evidence
beyond a reasonable doubt that the defendant James
Earnest Watts A/K/A “Squirrel,” utilized a method of
killing which caused serious physical or mental pain on
WESTLAW

So.2d 613 (Miss. 1997); I® Lester v. State, 692 So.2d
755, 797-98 (Miss. 1997); Q Wileher v. State, 697 So.2d
1087, 1109-10 (Miss. 1997); ^ Brown v. State, 690
So.2d 276, 294-95 (Miss. 1996).
If 74. In t* Hansen v. State, 592 So.2d 114 (Miss.1991),
this Court found that when considering whether a crime
could be considered “especially heinous, atrocious or
cruel,”

barbarity sufficient to satisfy this
aggravating circumstance can be
demonstrated by showing that the
defendant utilized a method of
killing which caused serious
mutilation, where there is a
dismemberment of the corpse,
where the defendant inflicted
physical or mental pain before
death, or where a lingering or
torturous death was suffered by the
victim.

l® Id. at 152 (quoting I®©Pinkney v. State, 538 So.2d
329, 357 (Miss.1988), vacated on other grounds, 494 U.S.
1075, 110 S.Ct. 1800, 108 L.Ed.2d 931 (1990)). Although
this aspect of Pinkney was not addressed in the United
States Supreme
limiting language to that used in Sentencing Instruction

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT B

22

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/21 23 of 30 PagelD #: 96

Watts v. State, 733 So.2d 214 (1999)

No. 5 was approved in t Lewis v. Jeffers, 497 U.S. 764,
110 S.Ct. 3092, 111 L.Ed.2d 606 (1990) and 1* Walton v.
Arizona, 491 U.S. 639, 110 S.Ct. 3047, 111 L.Ed.2d 511
(1990). See also
Jackson, 684 So.2d at 1236-37;
^ Conner v. State, 632 So.2d 1239, 1270 (Miss.1993);
f Jenkins v. State, 607 So.2d 1171 (Miss. 1992). The
language in Sentencing Instruction No. 5 has sufficiently
“refined and narrowed the aggravating circumstance of
‘heinous, atrocious or cruel’ and channeled in a principled
way the jury’s sentencing discretion, excluding the
arbitrary *239 and the capricious to the extent reasonably
practicable and has fairly facilitated proportionality
review. » I Hansen, 592 So.2d at 152.
[301

U 75. There further is no merit to Watts’ charge that
Sentencing Instruction No. 4 improperly instructed the
jury that the number of aggravating and mitigating factors
is “wholly immaterial” to the sentencing decision.
Sentencing Instruction No. 4 provides:

The Court instructs the jury that in
[the] weighing of mitigating and
aggravating circumstances the
number of each is wholly
immaterial and must not be so
considered by you, but instead, that
you must consider the same in
terms
of
their
individual
importance and effect upon your
minds as jurors. That is to say, by
way of example, that one of either
of such circumstances, standing
alone, may, if it satisfies your
minds as jurors, outweigh all
multiple other circumstances.

Watts concedes that Sentencing Instruction No. 3,
submitted by the State, is a “far more accurate statement
of the law.” That instruction provided as follows:

The Court instructs the jury that it
must be emphasized that the
procedure you must follow is not a
mere counting process of a certain
number
of
aggravating
circumstances versus the number of
mitigating circumstances. Rather,
you must apply your reasoned
WE5TLAW

judgment as to whether this
situation calls for life imprisonment
or whether it requires the
imposition of death, in light of the
totality of the circumstances
present.

This Court considers whether the instructions given to the
jury, read as a whole, fairly announce the law of the case.
1" Coleman v. State, 697 So.2d 111, 782 (Miss. 1997).
Read together, the instructions fairly advise the jury that
the consideration of aggravating and mitigating factors is
not a mere numbers game.
800-01.

Lester, 692 So.2d at

[31] U 76. Watts further complains that his eighth
amendment rights were violated by use of the term
“sentiment” in Sentencing Instruction No. 2 as well as by
the language, “You should consider and weigh any
mitigating circumstances as set forth later in this
instruction, but you are cautioned not to be swayed by
mere sentiment, conjecture, sympathy, passion, prejudice,
public opinion or public feeling.” He does not elaborate.
We have found that the language given in the instruction
is acceptable. Blue, 674 So.2d at 1225; ^ Willie v. State,
585 So.2d 660, 677 (Miss. 1991).
[32]
U 77. Finally, Watts contends that the “catch-all
mitigating factor” language in Sentencing Instruction No.
2 could be construed by reasonable jurors “to mean that
they had discretion under the law to decide not to consider
non-statutory mitigating circumstances when deciding
defendant’s sentence.” The complained of language reads:

7. Any matter, any other aspect of
the defendant’s character or record,
and any other circumstance of the
circumstance brought you during
the trial of this cause, which you,
the Jury deem to be mitigating on
behalf of the defendant;

This is a proper “catch-all” instruction and as such does
not foreclose the jury from considering any and all
Berry, 703 So.2d at 287; ^ Lester,
mitigating factors.
692 So.2d at 799; Gray v. State, 375 So.2d 994, 1003-04
i

(Miss. 1979). See also ' Blystone v. Pennsylvania, 494
U.S. 299, 110 S.Ct. 1078, 108 HEa^a—=Z55'

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT B

23

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/21 24 of 30 PagelD #: 97

Watts v. State, 733 So.2d 214 (1999)

(I990)(catch-all instruction did not unconstitutionally
limit jury’s consideration of mitigating factors). There is
no merit to Watts’ assertion that the instruction instructs
the jury to ignore non-statutory mitigating factors; rather
it allows the jurors to consider other mitigating evidence.
t" Evans, 1997 WL 562044, at *85, 725 So.2d 613.
XVII. WHETHER, AT LEAST PRIOR TO
AUGUST, 1994, I* MISS. CODE ANN. §
97_3_19(2)(e) VIOLATED THE FIFTH, EIGHTH
AND FOURTEENTH AMENDMENTS TO THE
CONSTITUTION OF THE UNITED *240
STATES; AND ART. 3, SECS. 14, 26 AND 28 OF
THE MISSISSIPPI CONSTITUTION, AS WELL
AS MISSISSIPPI CASE LAW
[33]

If 78. Watts next asserts that because the elements of
the capital murder pursuant to J** Miss.Code Ann. §
97-3-19(2)(e) were the same as those set out in
Miss.Code Ann. § 97-3-27 for manslaughter at the time
of the crime for which he was convicted, his conviction
and sentence under the harsher statute violated a panoply
of constitutional rights. He variously argues that the
existence of two separate statutes under which charges
may be brought fails to furnish a principled means of
distinguishing those defendants charged with committing
sexual battery who are eligible for the death penalty; that
the rule of lenity forbids conviction on the greater
offense; and that the remedial amendments to Miss.Code
Ann. § 97-3-27 are not retroactively applicable to his
case. Watts failed to raise the issue in the proceedings
below. Further, we squarely rejected the exact arguments
he now raises in TF* Lester v. State, 692 So.2d 755, 788
(Miss. 1997). See also
Jackson, 684 So.2d at 1229
(overlap between 1* §§ 97—3—19(2)(f) and 97-3-27 does
not give prosecutors and juries unfettered discretion in
imposing death penalty). Watts further contends that the
rule of lenity dictates that where two penal statutes set
forth identical elements of the offenses, the accused must
be prosecuted under the statute imposing the lesser
punishment. See 1* Dunn v. United States, 442 U.S. 100,
112, 99 S.Ct. 2190, 60 L.Ed.2d 743 (1979) (“[The rule of
lenity] reflects not merely a convenient maxim of
statutory construction. Rather, it is rooted in fundamental
principles of due process.”); If* Mullaney v. Wilbur, 421
U.S. 684, 703-04, 95 S.Ct. 1881, 44 L.Ed.2d 508 (1975)
(“[It] is far worse to sentence one guilty only of
manslaughter as a murderer than to sentence a murderer
for the lesser crime of manslaughter.”). In Blue, the same
argument was made when this issue was raised on appeal
despite counsel’s failure to raise it at trial. Having rejected
the merits of the constitutional issue, this Court imposed
WESTLAW

the procedural bar “without hesitation.” Blue, 674 So.2d
at 1206; 1M Chase, 645 So.2d at 835;
Foster, 639
So.2d at 1270. There is no merit, therefore, to the
argument Watts now makes.
XVIII. WHETHER THE TRIAL COURT ERRED
IN DENYING DEFENDANT’S SENTENCING
INSTRUCTIONS NOS. 7, 8 AND 9
H 79. Watts next complains that the circuit court erred in
denying his Sentencing Instructions Nos. 7, 8 and 9. The
State correctly asserts that the requested instructions were
not warranted.
1341 H 80. He first contends that he should have been
allowed to instruct the jury to presume there were no
aggravating factors and that it could consider only those
aggravating circumstances set out in the court’s
preliminary sentencing instruction. Sentencing Instruction
No. D—7 provides as follows:
The Court instructs the jury that you are to presume
that there are no aggravating circumstances that would
warrant a sentence of death. That presumption may be
abandoned if and only if the evidence convinces you
beyond a reasonable doubt that one or more of the
particular specified aggravating circumstances exist.
The Court further instructs the jury that I have
previously read to you the list of aggravating
circumstances which the law permits you to consider if
you find that any of them are established by the
evidence. These are the only aggravating circumstances
you may consider.
The jury was properly instructed that it could consider
only those aggravating factors presented by the court
which it found to exist beyond a reasonable doubt as part
of the Court’s Sentencing Instruction No. 2. We have held
that a separate instruction regarding the presumption of no
aggravating circumstances is not required, i
State, 660 So.2d 1228, 1245 (Miss.1995).

Davis v.

*241 |3S| 1] 81. Watts further contends that the circuit court
should have allowed his Sentencing Instruction D-8,
instructing the jury on the “presumption of life
imprisonment.” The refused instruction stated:

The Court instructs the jury
James Earnest Watts enters
phase of the trial with
.presumption_that there are
aggravating circumstances

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT B

that
this
the
no
that
24

Y

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/21 25 of 30 PagelD #: 98

Watts v. State, 733 So.2d 214 (1999)

would warrant a sentence of death,
and the presumption that the
appropriate punishment in his case
would be life imprisonment. These
presumptions remain with James
Earnest Watts throughout the
sentencing hearing, and can only be
overcome if the evidence convinces
each one of you, beyond a
reasonable doubt, and to the
exclusion of every reasonable
hypothesis consistent with the
innocence of the defendant, that
death is the only appropriate
punishment.

of his blame or punishment. You,
as a juror, always have the option
to sentence the defendant to life
imprisonment, whatever findings
you make.

However, we have held that mercy instructions are not
required and that whether to so instruct the jury is within
the discretion of the trial court, f Jackson, 684 So.2d at
1239;
Foster, 639 So.2d at 1301; ?* Jenkins v.
State, 607 So.2d 1171, 1181 (Miss. 1992). In Jackson, the
Court reiterated the language from Jenkins used in
affirming the circuit court’s refusal to grant a mercy
instruction:

Finding no error in the denial of a similar instruction in

The recent decisions of this Court and of the United
States Supreme Court enumerate that a mercy

Jackson v. State, 684 So.2d 1213 (Miss. 1996), we
noted that we had already flatly rejected the proposition
that “ ‘a defendant should go into the sentencing phase
with a presumption that life is the appropriate
punishment.’ ” Tfat 1233 (quoting
Chase, 645

instruction is not required at trial. In
Ladner [v.
State, 584 So.2d 743, 761 (Miss.1991) ], we held that a
defendant “has no right to a mercy instruction.”
f* Ladner, 584 So.2d at 761. In
Saffle v. Parks, 494

So.2d at 860).

See also T* Leatherwood v. State, 435
So.2d 645, 650 (Miss.l983)(if the defendant “had not
been convicted of a capital offense, there would be no
need for the sentencing hearing and he would simply be
sentenced to serve a life term. This does not mean though
that the procedure is unfair or faulty.”).

U.S. 484, 492-93, 110 S.Ct. 1257, 1262-63, 108
L.Ed.2d 415, 427-28 (1990), the U.S. Supreme Court
stated that the giving of a mercy instruction results in a
decision based upon whim and caprice. Thus, the lower
court was within its discretion when it denied the
mercy instruction below.
If®Id. at 1239 (quoting If* Jenkins, 607 So.2d at 1181).

[36]

K 82. Watts also asserts that he was entitled to a mercy
instruction under Mississippi law and the eighth and
fourteenth amendments to the United States Constitution,
but does not elaborate. Thus, he claims, Sentencing
Instruction No. D-9, which provides as follows, should
have been allowed:

The Court instructs the jury that
although at the guilt and innocence
phase of the trial, you were
instructed that you were not to be
swayed by sympathy, at this phase
of the trial you are bound by law
and your oath as jurors to consider
mitigating
factors.
Mitigating
factors are facts that, while they do
not justify or excuse the crime,
nevertheless in fairness, sympathy,
and mercy to James Earnest Watts,
must be considered by you as
extenuating or reducing”the "degree"
WESTLAW

Likewise, in the case sub judice, the circuit court did not
abuse its discretion in declining to allow Watts a mercy
instruction.
XIX. WHETHER MISSISSIPPI’S CAPITAL
PUNISHMENT
SCHEME
IS
UNCONSTITUTIONAL AS APPLIED TO THIS
CASE AND ON ITS FACE
*242 1371 U 83. Watts next contends that Mississippi’s
capital punishment scheme is unconstitutional as applied
to this case as well as on its face.8 He concedes that this
Court rejected the argument that it is facially
unconstitutional in If* Holland v. State, 705 So.2d 307
(Miss. 1997). He attempts, however, to distinguish his
case from Holland, noting that the jury found only that he
actually killed Vanessa Nicole Lumpkin and
contemplated that lethal force would be employed,
whereas in Holland, the jury found that the defendant
actually killed, intended to kill and contemplated that
lethal force would be employed.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT B

25

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/21 26 of 30 PagelD #: 99

Watts v. State, 733 So.2d 214 (1999)

AGREEMENT OF THE PARTIES TO ALLOW
THE PETIT JURY TO GO HOME AFTER THEY
WERE
SWORN
IN
WITHOUT
BEING
SEQUESTERED

U 84. Watts misconstrues the requirements of
Enmund
v. Florida, 458 U.S. 782, 102 S.Ct. 3368, 73 L.Ed.2d
1140 (1982) as incorporated in 1® Miss.Code Ann. §
99—19—101 (7)(1994), which applies “to any case in which
pre-trial, trial or resentencing proceedings take place after
July 1, 1994.” The statute therefore is applicable to the
case sub judice. Section 1** § 99-19-101(7) expressly
states:
(7) In order to return and impose a sentence of death
the jury must make a written finding of one or more of
the following:
(a) The defendant actually killed;
(b) The defendant attempted to kill;

K 86. The jury was impaneled in Lincoln County. After
the jurors were sworn, the parties agreed that they would
be allowed a short time in which to pack some things at
home before they were transported from Brookhaven to
Columbia in Marion County that same afternoon, where
they would be sequestered throughout the trial. The
circuit court instructed the jurors not to read any
newspapers, listen to the radio or talk with anyone about
the case while they got ready. Watts now asserts that it
was reversible error to so allow.
*243 H 87. ^ Rule 10.02 of the Mississippi Uniform

(c) The defendant intended that a killing take place;
(d) The defendant contemplated that lethal force
would be employed.
I* § 99-19-101(7)(1994)(emphasis added). Clearly, the
jury need not make a written finding of any more than one
of these four factors. See ^ Holland, 705 So.2d at
319-20.
TI 85. Watts further relies on F* Tison v. Arizona, 481
U.S. 137, 107 S.Ct. 1676, 95 L.Ed.2d 127 (1987), where
the appellants did not actually murder the victims, but
stood by while their father and his former cell mate killed
them and then assisted in the escape and a shoot-out with
police. He cites Tison for the proposition that to be
executed, the felony-murderer must act with “reckless
indifference to the value of human life ... knowingly
engaging in criminal activities known to carry a grave risk
of death.”
Id. at 157, 107 S.Ct. 1676. He asserts that
there is no “credible evidence” that he acted with such
recklessness since the jury did not expressly find that he
intended to kill Vanessa Nicole Lumpkin. Watts further
asserts that this absence of a finding of “intent to kill”
should have been considered as a mitigating factor. Tison,
however, is factually distinguishable from the case sub
judice since the appellants did not actually participate in
the killings. Moreover, even if we were to adopt the Tison
standard, we cannot say the evidence does not support a
finding of reckless intent or intent to kill when a child was
strangled and sexually penetrated with such brutal force.

XX. WHETHER THE TRIAL COURT ERRED IN
ALLOWING THE JURY TO BREAK FOR
LUNCH DURING VOIR DIRE WITHOUT BEING
SEQUESTERED AND TO OBTAIN THF
WESTLAW

[38]

Circuit and County Court Rules states that “[i]n any case
where the state seeks to impose the death penalty, the jury
shall be sequestered during the entire trial.” There is no
corresponding statutory directive, rather the rule stems
from the common law rule of jury sequestration.
I* Wilson v. State, 248 So.2d 802, 803 (Miss. 1971).
Watts, apparently laboring under the misapprehension
that court rules are made by the Legislature, charges that
“[t]he trial court indisputably violated this clear
legislative directive.” He then refers the Court to T® State
v. Watts, 579 So.2d 931 (La.1991), which is totally
irrelevant to the assignment of error at issue.
U 88. In Wilson, this Court found that despite agreement
by the defendant that the jury could disperse for the night
after the first day of trial in his capital murder case,
allowing the jury to separate for the night after the first
day of trial was reversible error. Id. at 803. It rejected the
idea that any error was cured by the consent of the
defendant, raising concerns about the prejudice that might
befall a defendant asked to consent to a waiver of
sequestration:

In this case it is suggested by the
counsel for the State that if there
was any error in permitting the jury
to separate, it was cured by the
consent of the prisoner. We do not
agree with counsel in this view of
the law. We are of the opinion that
the court has no power to authorize
the separation of the jury during the
trial of a capital case, either with or
without the consent of the prisoner.
except in cases of great necessity;

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT B

26

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/21 27 of 30 PagelD #: 100

Watts v. State, 733 So.2d 214 (1999)

and if it be done, and the prisoner
be found guilty, a new trial will be
granted. The prisoner ought not to
be asked to consent. Who dare
refuse to consent, when the
accommodation of those, in whose
hands are the issues of his life or
death, is involved in the question?
He would have to calculate the
chances of irritation from being
annoyed by a refusal on the one
hand, and of tampering on the
other. No consent of the prisoner in
the extremity of his need, ought to
bind him. He may really be
unwilling to permit the jury to
separate, but may consent for fear
that his refusal may prejudice the
jury against him.

Id. at 803-04 (quoting P* Woods v. State, 43 Miss. 364,
372-73 (1870)). This Court reiterated in If® Cox v. State,
365 So.2d 627 (Miss. 1978) that in a capital case, “the jury
shall be sequestered during the entire trial and this right
cannot be waived either by the attorney for the accused or
at the discretion of the trial court.” F* Id. at 629. See also
I* Weaver v. State, 272 So.2d 636, 638 (Miss.l973)(“if
this were a capital case, dispersal and separation of jurors
would be reversible error even if permitted with the
consent of the defendant.”). But see Barnes v. State, 374
So.2d 1308, 1309 (Miss.l979)(in manslaughter case,
failure to sequester jury was not error because Defendant
agreed to procedure). In Cox, the juiy was sent home for
the night after the first day of trial in a capital murder case
after the defendant became ill late in the day and the
judge determined that it would be impossible to arrange
transportation and hotel rooms for the jurors. Id. at 628.
As distinguished from Wilson, Woods and the case sub
judice, however, counsel for the defense apparently did
not agree to dispersing the jury. Id.
K 89. In this case, as further distinguished from Wilson
and Cox, although the jury already had been sworn, it had
not yet heard opening arguments or the testimony of any
witnesses. The jurors were not dispersed for any great
length of time; rather, court was adjourned at 4:10 p.m.
and they were directed to hurry back to the courthouse so
that they might travel to Columbia that afternoon. There is
no suggestion in the record that any of the jurors
disregarded the court’s instructions regarding discussion
ufthtruase:
-------------------------------------------WE5TLAW

If 90. None of the Mississippi cases address the situation
now before this Court: where the jury has been permitted
to disperse briefly after the completion of preliminary
proceedings but before the actual trial and introduction of
evidence. In the *244 majority of other jurisdictions,
where the common law practice of sequestration has been
superseded by statute so as to allow waiver by consent,
dispersal of the jury before the actual trial has not been
found to be grounds for a new trial. Allen E. Korpela,
Annotation, Separation of Jury in Criminal Case Before
Introduction of Evidence—Modem Cases, 72 A.L.R 3d
100, 103 (1976 and Supp.1995). In Louisiana, where the
Criminal Code was amended in 1995 to relax the
sequestration requirement so as to provide that “[i]n
capital cases, after each juror is sworn he shall be
sequestered, unless the state and the defense have jointly
moved that the jury not be sequestered.” F® La.Code
Crim. P., art. 791(B), it was noted that the restriction
against wavier was premised on the idea that a “
‘[djefendant ought not to be placed in the position of
having to consent, or perhaps prejudice the jury by
withholding consent.’ ” 1® State v. Taylor, 669 So.2d
364, 381 (La.1996)(quoting 1®* State v. Luquette, 275
So.2d 396, 400 (La. 1973), overruled by ^ Taylor, 669
So.2d at 381). As the Taylor court pointed out, concerns
about prejudicing the defendant may be remedied by
following the proper procedure, that is, by considering the
issue of waiver of sequestration outside the presence of
the jury and requiring both the state and the defendant to
consent before sequestration may be waived. Id. See also
I*® State v. Robertson, 712 So.2d 8 (La. 1998).
1 91. The better practice would have been for the circuit
court to advise venire members the night before final jury
selection and swearing in to come to court with packed
suitcases. However, allowing the jurors, with the consent
of both parties, to go home and quickly pack their bags
after they were sworn in but before they were sequestered
for the actual trial and the introduction of any evidence,
does not warrant reversal of the entire case for a new trial.
The jurors were advised that both sides had agreed that
they could have a few minutes to get their things ready.
The potential for jury prejudice against the defendant
upon which the rule against allowing any waiver of
sequestration even with the defendant’s consent is
premised was eliminated when consent was obtained by
both parties outside of the presence of the jury.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT B

27

t

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/21 28 of 30 PagelD #: 101

Watts v. State, 733 So.2d 214 (1999)

IV.
K 92. While there is no merit to most of the issues raised
by Watts in his appeal, we find that despite his
acquiescence to the Sentencing Instruction No. 2 at trial,
the circuit court_couunitted rev_er.sible_erroiia.pjresenting
the iury with only two sentencing options. .The jury was
instructed thatit-couM-sentence Watts taJifeJn prison or.
death^fhe third option of life without fhe-oossibilitv-of
parole-as-xfiqnired hv iS 97-3-2I-was-4iQt presented.
The^cirxmit—court found that because-the—offense., was .
committed before the effective date-of-the-statute.-July 1,
1994, it was not applicable. However. the_notes to the,
statute expressly state that ‘Ttlhe provisions ofLthis act.
shall apply to any case in which pre-trial, trial or_.
resentencing proceedings take place after July 1. 1994.”
Watts’ trial was held on August .5.,.-19if6..mQj:eJhanJwo
years after the., effective date._SLe_therefore re.v.erse-a,s-to._
punishment-ancLremand for a new trial on the sentencing
phase only.
H 93. CONVICTION OF CAPITAL MURDER
AFFIRMED. SENTENCE OF DEATH REVERSED
AND
REMANDED
FOR
PROCEEDINGS
CONSISTENT WITH THIS OPINION.

PRATHER, C.J., SULLIVAN AND PITTMAN, P.JJ.,
BANKS, MILLS AND WALLER, JJ., CONCUR.
BANKS, J., CONCURS WITH SEPARATE WRITTEN
OPINION JOINED BY SULLIVAN AND PITTMAN,
P.JJ., AND WALLER, J.

(1986). The initial trial in this matter, held in Marion
County, resulted in mistrial because the jury panel was
exhausted without a jury being selected. In picking jurors
for that trial, the trial court ordered both the State and
defense counsel to state race-neutral reasons for their
peremptory challenges prior to any objection or any
finding of a prima facie case of discrimination. Defense
counsel was unable to state race-neutral reasons for his
peremptory challenges to the court’s satisfaction in a
number of instances where the reasons stated were, in
fact, race neutral. A similar occurrence transpired in
I® Taylor v. State, 733 So.2d 251 (Miss. 1999).
II 96. In F* Taylor v. State, 733 So.2d 251, we concluded
that the trial court erred in requiring the defendant to
provide race-neutral reasons for its peremptory strikes
without there first being a finding of a prima facie case of
discrimination. F* Id. at 258. By invoking Batson, the
defendant was not automatically required to come
forward with race-neutral reasons for its strikes without
an objection by the State and a showing that there existed
a pattern of using peremptory challenges to exclude racial
groups, contrary to what the trial court held. F* Id. at 258.
II 97. In this case, counsel’s prior experience with Batson
issues in the initial trial prompted him to waive Batson in
the subsequent trial. In my view, however, counsel’s
decision was wrongly induced by the trial court, which
had mishandled Batson in other cases. See F* Taylor v.
State, No. 97-KA-00560-SCT, 733 So.2d 251.
98. The fact is, however, that there is no evidence of
discrimination in the present case. For this reason, I
concur with the majority opinion.

SMITH, J., DISSENTS WITH SEPARATE WRITTEN
OPINION JOINED BY JAMES L. ROBERTS, Jr., J.
SULLIVAN AND PITTMAN, P.JJ., AND WALLER, J,
JOIN THIS OPINION.

BANKS, Justice, concurring:
H 94. I write separately to express my concern with the
trial court’s mishandling *245 of Batson in this case.
Defense counsel made the decision to waive Batson
challenges; however, it was a decision which was
wrongly induced by the trial court.
U 95. In the present case, we are presented with a trial
court judge who improperly allowed waiver of Batson
challenges. Counsel agreed to waive Batson in an effort to
avoid having to provide the court with race-neutral
-----reasons- for-its-peremptory-ehallenges^-iS'ee-F^-.Stftoon-w
Kentucky, 476 U.S. 79, 106 S.Ct. 1712, 90 L.Ed.2d 69
WESTLAW

SMITH, Justice, dissenting:
1 99. The majority reverses Watts’ death penalty and
remands for a new sentencing hearing because the trial
judge failed to instruct the jury that the sentencing option
of life without parole was available in the case at baj/1
disagree and therefore dissent.
UTOOTTHisseJffSd-iegaidfngTFurissue in

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT B

28

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/21 29 of 30 PagelD #: 102

Watts v. State, 733 So.2d 214 (1999)

1998 WL 334717, 725 So.2d 872 (Miss. 1998). I adopt my
views expressed in that case as the same issue relates to
the case sub judice. I prefer to adhere to this Court’s
precedent cases of t ' Johnston v. State, 618 So.2d 90, 94
(Miss.1993) and Hill v. State, 659 So.2d 547, 552—559
(Miss. 1994).

JAMES L. ROBERTS, Jr., J., JOINS THIS OPINION.
All Citations
733 So.2d 214

U 101.1 respectfully dissent.
Footnotes

i

Haller testified that based on her visual examination of the shorts, she further tested the stains for the possible
presence of feces, and achieved a positive result. Watts moved for a mistrial, which was denied, but the circuit court
instructed the jury to disregard the evidence.

2

Dr. Koehler, adjunct professor at the University of Texas School of Law and assistant professor at the University's
Business School, is one of the leading authorities on the use (and misuse) of statistics in the presentation of DNA
evidence. See, e.g. Jonathan J. Koehler, Audrey Chia & Samuel Lindsey, The Random Match Probability (RMP) in
DNA Evidence: Irrelevant and Prejudicial?, 35 Jurimetrics J. 201-19 (1995).
Watts supports this assignment of error with Recommendation 3.2 of the 1996 NRC II Report, which provides that
"Laboratories should participate regularly in proficiency tests, and the results should be available for court
proceedings". Ironically, in Issue XV, Watts complains that the delays in his trial prejudiced him as the result of the
publication of the 1996 NRC Report. It further should be reiterated that neither the 1992 nor the 1996 NRC Reports
were entered into evidence.

4

Baxter testified that when she returned to her apartment the next day, her door had been tampered with.

5

The only objection made was the renewal of a continuing objection to the introduction of enlarged photographs of
the victim's injuries.

6

r—
f Cabello v. State, 471 So.2d 332 (Miss.1985), upon which Watts relies for this proposition, does not even suggest
that alleged prosecutorial misconduct must be addressed on appeal even if no objections were made during trial.
Rather, the Court merely addressed the assignment of error quite briefly, observed that no objection had been
r—-

made at trial and found the Appellant's proposition to be without merit. \rJld. at 346.
7

Rule 403, which Watts cited in his objection to the enlarged photographs, provides that relevant "evidence may be
excluded if its probative value is substantially outweighed by the danger of unfair prejudice, confusion of the issues,
or misleading the jury, or by considerations of undue delay, waste of time, or needless presentation of cumulative
evidence."

8

Watts filed a Motion to Declare the Death Penalty Unconstitutional on August 24,1995. It does not appear from the
record that Watts ever obtained a ruling on his motion.

End of Document

WESTLAW

©’2021 ThemsgiTROTtgrsrrmigimo-oTigiTi^t-tt^r&o vti i ii ilent-Worksr
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT B

29

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/21 30 of 30 PagelD #: 103

Watts v. State, 733 So.2d 214 (1999)

)

<4

WESTLAW

© 2021 Thomson Reuters. No claim to original U S. Government Works.

EXHIBIT B

30

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-1 Filed: 02/22/21 1 of 3 PagelD #: 71

IN THE CIRCUIT COURT OF MARION COUNTY, MISSISSIPPI

STATE OF MISSISSIPPI

wffluSig

CASE NO. 59

VERSUS

JAMES EARNEST WATTS, A/K/A "SQUIRREL"

AUG 191996
ORDER OF CONVICTION
JOE HERRING, Circuit ClerV

t

By.

INTO OPEN COURT on August 29, 1995, this matter having be

transferred on change of venue to Lincoln County, Mississippi, came
the District Attorney who prosecutes for the State of Mississippi
and came also JAMES EARNEST WATTS, A/K/A/ "SQUIRREL", defendant
herein,

in his own proper person and represented by counsel,

Honorable Phillip Broadhead and Honorable Morris Sweatt, and having
heretofore been lawfully arraigned on August 29,

1995

on

an

indictment returned by the Grand Jury of MARION COUNTY, Mississippi
charging said Defendant with the crime of CAPITAL MURDER,

in

violation of Mississippi Code Section 97-3-19(1)(2)(e), and said
defendant entered a plea of not guilty.

Thereafter, the jury panel

from Lincoln County was quashed as there were an insufficient
number of jurors present in the Courtroom and the Court re-set the
trial for March 4, 1996.

Further, on March 4, 1996, the juror

panel was incorrectly drawn and this case was re-set for August 5,
1996.

On August 5, 1996, the jury for said trial was selected from

Lincoln County, Mississippi, and upon order of the Court, after the
jury was selected, the trial was transferred back to Marion County,
Mississippi and on August 6, 1996, the State of Mississippi and the
Defendant announced ready for trial, a lawful jury of twelve (12)

EXHIBIT A

p.c

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-1 Filed: 02/22/21 2 of 3 PagelD #: 72

jurors, comprised of Gregory Smith, Marilyn Brown, Geraldine F.
Fauver, Ronnie W. Burns, George W. Porter, May Ellen Hemby Smith,
Laura Williams, Betty Walker, Jerry Nettles, Jay Lloyd Nations,
Rhonda Gail Kyzar and Curtis Lee Dunaway, was fully empaneled and
said case proceeded to trial and continued on to August 9, 1996,
and after both the State of Mississippi and the Defendant had
rested and after receiving the instructions of the Court and
hearing the argument of the State and defendant, the jury retired
to consider its verdict on the guilt phase of this trial and
presently returned into open Court with the following verdict, towit:
"WE, THE JURY, FIND THE DEFENDANT GUILTY OF
CAPITAL MURDER."
And said jury, having again retired for the purpose of fixing
punishment, after being further instructed by the Court and hearing
further argument of counsel, presently returned into open Court the
following verdict as to punishment, to-wit:
"We, the jury, unanimously find from the evidence, beyond
a reasonable doubt, that the following facts existed at
the time of the commission of the capital murder:
1.

That the defendant actually killed Vanessa Nicole
Lumpkin.

2.

That the defendant contemplated that lethal force
would be employed.

Next,

we,

the jury,

unanimously find that the aggravated

circumstances of:
1. The Capital Murder was committed while the defendant
was engaged in the Commission of the crime of Sexual

EXHIBIT A
ill

i /

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-1 Filed: 02/22/21 3 of 3 PagelD #: 73

Battery, or in an attempt to commit the crime of Sexual
Battery;
2. The Capital Murder was especially heinous, atrocious or
cruel;
are sufficient to impose the death penalty and that there are
insufficient mitigating circumstances to outweigh the aggravating
circumstances, and we further find unanimously that the defendant
should suffer death."
Said verdict being signed by Ronnie Burns, Foreman of the
jury.
THEREFORE,

IT IS ORDERED AND ADJUDGED that the defendant,

JAMES EARNEST WATTS, A/K/A/ "SQUIRREL", for the offense of Capital
Murder, of which he has been found guilty, and for which the Jury
has determined that he should suffer the penalty of death, be and
he is hereby sentenced to be remanded into the lawful custody of
the

Sheriff

of

MARION

COUNTY,

Mississippi,

for

immediate

transportation to the Maximum Security Unit at the Mississippi
State Penitentiary, Parchman, Mississippi, where at sometime on the
20th day of September, 1996, he shall suffer the penalty of death
by lethal injection.
SO ORDERED AND ADJUDGED this the

9th

day of August,

1996.

7(CIRCUIT JUDGE

EXHIBIT A
.11. L

”

\

FEB 2 8 2018

JAMES WATTS
VERSUS

OMY, MISSISSIPPI

RTnOF MARIO

IN THE CIRCUIT C

j

JANETTE NOLAN, CIRCUIT CLERK
n.c.
BY

APPELLANT
CAUSE NO. 5920-1
APPELLEE

STATE OF MISSISSIPPI

ORDER GRANTING APPELLANT IN FORMA PAUPERIS STATUS
THIS CAUSE, this day, came before the Court on the application to proceed
in forma pauperis by James Watts. The Court finds Watts is currently serving a life
sentence in the custody of the Mississippi Department of Corrections, is without
assets , and is therefore destitute. The Court finds further Watts has appealed an
order of this Court, and has requested to proceed in forma pauperis. The
application is therefore granted.
IT IS THEREFORE ORDERED AND ADJUDGED James Watts may
proceed in forma pauperis in his appeal, notice of which was filed with the clerk
of this Court on February 14, 2018.
IT IS FURTHER ORDERED AND ADJUDGED costs of this appeal are to
be assessed to Marion County.
SO ORDERED AND ADJUDGED this 28th day of February, 2018.

h fb

CIRCUIT JUDGE

(*' /\ v>
X

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF MISSISSIPPI
OXFORD DIVISION
PETITIONER

JAMES EARNEST WATTS

No. 3:20CV139-NBB-JMV

v.

RESPONDENTS

JESSIE J. WILLIAMS

MEMORANDUM OPINION
' This matter comes before the court on the pro se petition of James Earnest Watts for a writ of
habeas corpus under 28 U.S.C. § 2254. The State has moved [9] to dismiss the petition as untimely
filed under 28 U.S.C. § 2244(d)(2). The State has moved to dismiss the petition as untimely filed, and
Mr. Watts has responded to the motion. The matter is ripe for resolution. For the reasons set forth
below, the State’s motion to dismiss will be granted, and the instant petition for a writ of habeas
corpus will be dismissed as untimely filed.
Facts and Procedural Posture
James Earnest Watts (“Petitioner” or “Watts”) filed the instant Petition for Writ of Habeas
Corpus on May 18,2020, challenging his conviction of capital murder and sentence of life without the
possibility of parole. Doc. 1. On August 9,1996, a jury convicted Watts of capital murder in the
Circuit Court of Marion County, Mississippi and sentenced Watts to death. Exhibit A1 (“Order of
Conviction”); see also State Court Record (SCR), Cause No. 1996-DP-1030-SCT, Vol. 3 at 398,42225. Watts, through counsel, appealed his conviction and sentence, and on Januaiy 28, 1999, the
Mississippi Supreme Court affirmed his conviction but reversed his death sentence and remanded for

i

The exhibits referenced in this memorandum opinion may be found attached to the State’s
'Motion '[9] 'to 'Dismiss:

resentencing. Exhibit B (Watts v. State, 733 So. 2d 214,220 (Miss. 1999), reh ’g denied, May 6,
1999). On remand, the State agreed not to seek the death penalty in exchange for Watts’s agreement
to be sentenced to life without the possibility of parole. Exhibit C; see also SCR, Cause No. 2018-CP225-COA, Vol. 1 at 25-27. On June 4,1999, the circuit court re-sentenced Watts under Miss. Code
Ann. §99-19-101 (1994) to serve a sentence of life without parole. Id. Watts did not seek further
direct review of his sentence to life without parole.
On December 6,2017, Mr. Watts signed a pro se “Motion for Modification,” which was filed
in the Marion County Circuit Court on December 11,2017, seeking to challenge his sentence at issue
in this case. SCR, Cause No. 2018-CP-225-COA, Vol. 1 at 11-32. On January 19,2018, the circuit
court denied Watts’s motion. Id. at 33-34. Watts appealed the circuit court’s order, and the Mississippi
Court of Appeals affirmed. Exhibit D (Watts v. State, 264 So. 3d 829 (Miss. Ct. App. 2018)). Watts’
petition for writ of certiorari was denied on March 7, 2019, and the mandate issued on March 28,
2019. SCR, Cause No. 2018-CT-225-SCT, Certiorari Folder.
The Mississippi Supreme Court records also reflect that, on March 6,2020, Watts filed an
“Application for Leave to Proceed in the Trial Court,,” along with his “Motion for Post-Conviction
Collateral Relief,” in Mississippi Supreme Court Cause No. 2020-M-245. On April 6,2020, the
Mississippi Supreme Court dismissed Watt’s motion without prejudice to be filed in the trial court, as
he did not appeal the sentence he received on remand. See SCR, Cause No. 2020-M-245.
The instant petition was filed on May 18,2020.
One-Year Limitations Period:
No Statutory or Equitable Tolling
Decision in this case is governed by 28 U.S.C. § 2244(d), which provides:

-2-

(d)(1) A 1-year period of limitation shall apply to an application for a writ of habeas
corpus by a person in custody pursuant to the judgment of a State court. The limitation
period shall run from the latest of—
(A) the date on which the judgment became final by the conclusion of
direct review or the expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created by
State action in violation of the Constitution or the laws of the United
States is removed, if the applicant was prevented from filing by such State
action;
(C) the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly recognized
by the Supreme Court and made retroactively applicable to cases on
collateral review; or
(D) the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of due
diligence.
(2) The time during which a properly filed application for State postconviction or
other collateral review with respect to the pertinent judgment or claim is pending
shall not be counted toward any period of limitation under this subsection.
28 U. S.C. § 2244(d)(1) and (2).
Mr. Watts’ conviction became final on Monday, July 5,1999, thirty days after the circuit court
re-sentenced him to life without parole.2 See Roberts, 319 F.3d at 694 (“a decision becomes final ‘by
the conclusion of direct review or the expiration of the time for seeking such review.’”) (citing 28
U.S.C. § 2244(d)(1)(A)); see also Miss. R. App. R 4 (“the notice of appeal... shall be filed with the
clerk of the trial court within 30 days after the date of entry of the judgment or order appealed from.”).
Thus, absent statutory or equitable tolling, under the AEDPA’s one-year limitations period, Mr. Watts’
federal petition for a writ of habeas corpus was due on or before July 5,2000. The instant petition

2 Thirty days following the date of Watts’s re-sentencing was Sunday, July 4,1999; therefore, the next
business day was Monday, July 5,1999.
-3-

was filed on May 18,2020, nearly twenty years after Watts’s federal habeas corpus statute of
limitations expired. As discussed below, Mr. Watts does not enjoy either statutory or equitable tolling,
and his present petition is untimely filed.
No Statutory Tolling
Mr. Watts did not “properly file” an application for post-conviction relief on or before July 5,
2000; as such he does not enjoy statutory tolling of the limitations period under 28 U.S.C. §
2244(d)(2). See Grillete v. Warden, 372 F.3d 765, 769 (5th Cir. 2004); Flanagan, 154 F.3d at 201;
Davis v. Johnson, 158 F.3d 806 (5th Cir. 1998). The Mississippi Supreme Court records and the
records of the Marion County Circuit Court, as available on Mississippi Electronic Courts, reflect that
Mr. Watts did not file any post-conviction motions on or before July 5, 2000.3 Therefore, Watts’ oneyear habeas corpus limitations period ran uninterrupted, and his deadline to file his federal petition
remained July 5, 2000.
No Equitable Tolling
Neither is Mr. Watts entitled to equitable tolling of the one-year limitations period. “The
doctrine of equitable tolling preserves a [petitioner’s] claims when strict application of the statute
of limitations would be inequitable.” United States v. Patterson, 211 F.3d 927, 930 (5th
Cir.2000) (per curiam) (internal quotations omitted). The one-year limitations period of the
Anti-Terrorism and Effective Death Penalty Act (“AEDPA”) in 28 U.S.C. § 2255(f) is not

3 Neither Watts’ December 6, 2017, “Motion for Modification” - filed in Marion County
Circuit Court - nor his March 6, 2020, “Application for Leave to Proceed in the Trial Court” (with
accompanying “Motion for Post-Conviction Collateral Relief’) - filed in the Mississippi Supreme
Court serve to extend the habeas corpus filing deadline. These state post-conviction challenges were
filed many years after the federal habeas corpus limitations period expired, and it remains July 5,
2000.
-4-

jurisdictional; thus, it is subject to equitable tolling. United States v. Wynn, 292 F.3d 226, 230
(5th Cir.2002). For this reason, a district court may toll the AEDPA limitations period. Id. at
229-30.
The decision whether to apply equitable tolling turns on the facts and circumstances of
each case. Felder v. Johnson, 204 F.3d 168, 171 (5th Cir. 2000); see also Alexander v. Cockrell,
294 F.3d 626, 628 (5th Cir. 2002) (per curiam). However, a court may apply equitable tolling
only “in rare and exceptional circumstances.” Davis v. Johnson, 158 F.3d 806, 811 (5th Cir.
1998); see also Minter v. Beck, 230 F.3d 663, 666-67 (4th Cir. 2000) (“[Ejquitable tolling of the
AEDPA’s one-year limitation period is reserved for those rare instances where - due to
circumstances external to the party's own conduct - it would be unconscionable to enforce the
limitation period against the party and gross injustice would result.”) (quotation omitted).
The petitioner bears the burden of establishing that equitable tolling is warranted. See
Phillips v. Donnelly, 216 F.3d 508, 511 (5th Cir.), modified on reh'g, 223 F.3d 797 (2000) (per
curiam). In order to satisfy his burden, the petitioner must show “(1) that he has been pursuing
his rights diligently, and (2) that some extraordinary circumstance stood in his way” of timely
filing his § 2255 motion. Lawrence v. Florida, 549 U.S. 327, 127 S.Ct. 1079, 1085, 166 L.Ed.2d
924 (2007). “Equitable tolling applies principally where the [petitioner] is actively misled by the
[State] about the cause of action or is prevented in some extraordinary way from asserting his rights.”
Davis v. Johnson, 158 F.3d 806, 810-11 (5th Cir. 1998). A petitioner’s delay of even four months
shows that he has not diligently pursued his rights. Melancon v. Kaylo, 259 F.3d 401, 408 (5th
Cir. 2001).
Mr. Watts argues that his “claim of an ‘illegal sentence’... is fundamentally timeless,” that
“an illegal sentence claim [can] be raised at any time” - that “this fundamental claim cannot be
-5-

I
barred.” Doc. 1 at 13. He also argues that “in sentencing, [his] rights to due process of law [were]
violated.” Id. However, a claim of “illegal sentence” is not an exception to the federal habeas corpus
statute of limitations. See Robinson v. Mississippi, No. 4:17-CV-145-DMB-DAS, 2019 WL 1307734,
at *3 (NX). Miss. Mar. 22,2019) (citing O'Neal v. Banks, No. 1:17CV22-SA-RP, 2017 WL 1483298,
at *3 (N.D. Miss. Apr. 25,2017)); see also Williams v. Mississippi, No. 3:17CV118-NBB-DAS, 2018
WL 312870, at *3 (N.D. Miss. Jan. 5,2018); Jackson v. Brewer, No. 2:10CV85-WAP-JAD, 2010 WL
4531386, at *1 (N.D. Miss. Oct. 14,2010), report and recommendation adopted, No. 2:10CV085-PD, 2010 WL 4531385 (N.D. Miss. Nov. 2,2010).
In addition, Mr. Watts’ mistaken belief that his claim of an “illegal sentence” cannot be barred
does not entitle him to equitable tolling of the limitations period because a pro se prisoner’s ignorance
of the law or limited access to outside information also does not constitute a “rare and exceptional”
circumstance to excuse untimely filing. Fisher v. Johnson, 174 F.3d 710, 713-14 (5th Cir. 1999);
Alexander, 294 F.3d at 629. Further, neither proceeding pro se, inadequacies in a prison law library,
nor lack of knowledge of filing deadlines constitute a “rare and exceptional circumstance” to justify
equitable tolling. Felder v. Johnson, 204 F.3d 168,170 (5th Cir. 2000). Mr. Watts does not meet the
requirements to invoke equitable tolling in this case.
Timeliness Calculation
Under the prison “mailbox rule,” the instant pro se federal petition for a writ of habeas
corpus is deemed filed on the date the petitioner delivered it to prison officials for mailing to the
district court. Coleman v. Johnson, 184 F.3d 398, 401, reh ’g and reh ’g en banc denied, 196 F.3d
1259 (5th Cir. 1999), cert, denied, 529 U.S. 1057, 120 S. Ct. 1564, 146 L.Ed.2d 467 (2000)
(citing Spotville v. Cain, 149 F.3d 374, 376-78 (5th Cir. 1998)). In this case, the federal petition
was filed sometime between the date it was signed on May 6, 2020, and the date it was received
-6-

r
and stamped as “filed” in the district court on May 14, 2020. The instant petition was filed
nearly twenty years after the expiration of the filing deadline. The petitioner does not allege any
“rare and exceptional” circumstance to warrant equitable tolling. Ott v. Johnson,. 192 F.3d 510,
513-14 (5th Cir. 1999). For these reasons, the State’s motion to dismiss will be granted, and the
instant petition for a writ of habeas corpus will dismissed with prejudice and without evidentiary
hearing as untimely filed under 28 U.S.C. § 2244(d). A final judgment consistent with this
memorandum opinion will issue today.
SO ORDERED, this, the 21st day of April, 2021.
/s/Neal Biggers_____________
NEAL B. BIGGERS
SENIOR U. S. DISTRICT JUDGE

j

-7>YS*

t

0/

Case: 19-60296

Document: 00515033966

Page: 1

Date Filed: 07/15/2019

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-60296

Z

Wit
$

In re: JAMES WATTS

A True Copy
Certified order issued Jul 15, 2019

Movant

vfwt* W.
Clerk, U.S. Court of Appeals, Fifth Circuit

Motion for an order authorizing
the United States District Court for the
Southern District of Mississippi to consider
a successive 28 U.S.C. § 2254 application

Before REAVLEY, HIGGINSON, and OLDHAM, Circuit Judges.
PER CURIAM:
James Watts, Mississippi prisoner # 65859, was convicted of capital
murder of a child while committing sexual battery and initially sentenced to
death but later resentenced to life in prison without parole. Now, he moves
this court for authorization to proceed with a successive 28 U.S.C. S 2254
application raising claims concerning the trial court’s authority to resentence
him to life without parole.
This court may grant authorization to file a successive § 2254 application
if, inter alia, the prisoner establishes both that “the factual predicate for the
claim could not have been discovered previously through the exercise of due
diligence” and that “the facts underlying the claim, if proven and viewed in
light of the evidence as a whole, would be sufficient to establish by clear and
convincing evidence that, but for constitutional error, no reasonable factfinder
would have found the applicant guilty of the underlying offense.”
■§-2244(b)(-2)(B)—Because_Watts_has.not_met this standard, IT IS ORDERED
that his motion is DENIED.

a

rim
l \r i

**3

.; ,$?
\ nV^alsS* j*% J
V■

^s#5.

MANDATE
COURT OF APPEALS OF THE STATE OF MISSISSIPPI
To iiu; Marion County Circuit Court - GREETINGS:
In proceedings held in the Courtroom in the City of Jackson, Mississippi, the Court of Appeals of
the State of Mississippi entered a judgment as follows:
Court of Appeals Case # 2018-CT-00225-COA
Trial Court Case #5920-1
James Earnest Watts a/k/a Squirrel a/k/a James Watts v. State of Mississippi

Tuesday, 11th day of December, 2018
Affirmed. Marion County taxed with costs of appeal.
.

C.

1

■

'

’

-

■■■

Thursday, 7th day of March, 2019
DISPOSITION OF THE MISSISSIPPI SUPREME COURT - The Petition for Writ of Certiorari filed by
James Earnest Watts is denied. To Deny: Randolph, C.J., Kitchens and King, P.JJ., Coleman, Maxwell,
Beam, Chamberlin and Ishee, JJ. Not Participating: Griffis, J. Order entered.

YOU ARE COMMANDED, that execution and further proceedings as may be appropriate
forthwith be had consistent with this judgment and the Constitution and Laws of the State of Mississippi.
I, D. Jeremy Whitmire, Clerk of the Supreme Court of Mississippi and the Court of Appeals of
the State of Mississippi, certify that the above judgment is a true and correct copy of the original which is
authorized by law to be filed and is actually on file in my office under my custody and control.

Witness my signature and the Court's seal on March 28, 2019, A.D.
' 1

i
•

•

'r •

'

' '

■

■

V

\)

ra
/j

;

CLERK

.* *. *

A
IN THE CIRCUIT COURT OF MARION COUNTY, MISSISSIPPI

iSTATE OF MISSISSIPPI, ;i

:i \
•

*SSS5 LOPTi/-. Cr;C.L‘iT CL5\KCASE NUMBER 5920-1

vs.

By.

D.C.

JAMES EARNEST WATTS, DEFENDANT
SENTENCING ORDER
THIS DAY this cause came before this Court for the purpose of dealing
with the case herein as to the sentencing of the Defendant, and the Court does find
and adjudge as follows:
1. The Defendant, James Earnest Watts, was charged by indictment in
Marion County, Mississippi, with the offense of Capital Murder. A trijd was
conducted on said charge on August 5,1996,
2. The

.sfr9r199dr'“
rhareed in said cause. The jury took

up the sentencing phase of the offense on August 9, 1999, and the jury, after due
consideration, sentenced the Defendant to suffer the penalty of death.
3.

The Supreme Court of Mississippi took up the matter of the Defendant’s

direct appeal, after the filing of the briefs of the parties and afteroraUrgument__
before said Court, and rendered its decision in said appeal in which the conviction of
~|?^^s^affinneftand^

phase .was overturned and remanded

000053

\

to this Court for a re-hearing as to sentencing under §97-3-21 Miss. Code Amt---- .
^JSupjL-L294 The npinirm was rendered in that case on January 28, ^^^jp-Oase-

4. The error cited by the Mississippi Supreme Court had to do with the
improper instruction to the jury as to the options the jury would choose in imposing
the sentence

. The instructions given the jury did not allow the jury to consider the

imposition of the penalty of life without parole. Rather, only the options of death
and life with parole were given the jury by the instructions of the Court.
5. On the date set down herein June 4,19_99,jhis Court is prepared to set
the case herein for a date certain in advance of the present date on which to conduct
a sentencing hearing in accordance with the directives of the Mississippi Supreme
Court opinion and mandate.
6. On said date the Defendant appeared before this Court represented by
three attorn

eys, namely: Honorable Morris Sweatt, Honorable John Holdridge and

Honorable Haldon

Kittrell. Mr. Holdridge having made his first appearance in the

case during the appeal process.
7. The District Attorney offered to the Defendant the option of not seeking
the death penalty against the Defendant if the Defendant would waive any objection
to the

elimination of the penalty of Life with Parole and accept the penalty of Life

without Parole.
8. On the date herein the parents of the victim, Mr. And Mrs. Lumpkin, were
present, and they expressed their desire to eliminate the death penaltyisan option m

&

01)0055

the sentencing phase herein. The victim impact statement is attached hereto.
9. The Defendant announced to the Court that he would elect to waive the
necessity of a sentencing hearing, and he would waive any objection to the
elimination of the sentencing option of Life with Parole, and he would allow the
Court to enter a sentence herein against him for the charge herein of “Life without
parole” with the Mississippi Department of Corrections.
10. The Court determined that the decision of the Defendant was his own
voluntary and intelligent act without undue influence duress threat or promise from
any source, including his attorneys, his family or other parties.
11. The Court would refer to the record taken down by the official court
reporter in this cause for any clarification or elucidation which may be required.
IT IS THEREFORE THE ORDER OF THIS COURT that the
Defendant, James Earnest Watts, be and he is hereby sentenced to serve a sentence
of life imprisonment in the custody of the Mississippi Department of Corrections
without eligibility of parole, probation or early release.
IT IS FURTHER ORDERED AND ADJUDGED that the Defendant,
James Earnest Watts, is remanded to the custody of the Sheriff of Marion County to
await transportation to the Mississippi Department of Corrections.
SO ORDERED THIS THE 4^ day of June, 1999.

tA—
JUDGE R I PRICHARD. CIRCUIT COURT

8000S0

Additional material
from this filing is
available in the
Clerk's Office.

